                           TIGTA Semiannual Report to Congress




                                     Table of Contents
Click on any entry below to go to the page for that entry:

Inspector General’s Message to Congress ................................................................................ 1

TIGTA’s Profile ............................................................................................................................     3
    Statutory Mandate ..................................................................................................................         3
    Organizational Structure ........................................................................................................            4
    Authorities ..............................................................................................................................   4

Promote the Economy, Efficiency, and Effectiveness of Tax Administration .................... 5
    Tax Compliance Initiatives .................................................................................................... 5
    Systems Modernization of the IRS ........................................................................................ 8
    Tax-Exempt Organizations .................................................................................................. 10
    Security of the IRS ................................................................................................................. 11
    Providing Quality Taxpayer Service Operations ................................................................... 15

Protect the Integrity of Tax Administration ............................................................................ 19
     Performance Model ................................................................................................................ 20
     Protect Tax Administration .................................................................................................... 21
     Improve Tax Compliance Initiatives ...................................................................................... 25
     Monitor Use of Private Collection Agencies ......................................................................... 26
     Oversee IRS Modernization Efforts ....................................................................................... 28

Congressional Testimony ............................................................................................................ 31

Awards and Special Achievements ............................................................................................ 33

Audit Statistical Reports .............................................................................................................. 35
     Reports with Questioned Costs .............................................................................................. 35
     Reports with Recommendations That Funds Be Put to Better Use ....................................... 36
     Reports with Additional Quantifiable Impact on Tax Administration .................................. 37

Investigations Statistical Reports ............................................................................................... 39
     Complaints/Allegations Received by TIGTA ........................................................................ 39
     Status of Complaints/Allegations Received by TIGTA ......................................................... 39
     Investigations Opened and Closed ......................................................................................... 39
     Financial Accomplishments ................................................................................................... 39
     Status of Closed Criminal Investigations ............................................................................... 40
     Criminal Dispositions ............................................................................................................ 40
     Administrative Dispositions on Closed TIGTA Investigations ............................................. 40




                                                                           iii
                         TIGTA Semiannual Report to Congress




Appendices
Appendix I – Statistical Reports – Other .................................................................................. 41
    Audit Reports with Significant Unimplemented Corrective Actions .................................... 41
    Other Statistical Reports ........................................................................................................ 48

Appendix II – Audit Products ..................................................................................................... 49

Appendix III – TIGTA’s Statutory Reporting Requirements ............................................... 53

Appendix IV – Section 1203 Standards ..................................................................................... 57

Appendix V – Data Tables Provided by the IRS (Employee Misconduct Reports) ........... 59
    IRS Memorandum .................................................................................................................. 59
    Report of Employee Misconduct, Summary by Disposition Groups ..................................... 60
    Report of Employee Misconduct, National Summary ........................................................... 61
    Summary of Substantiated Section 1203 Allegations ........................................................... 62




                                                                      iv
                  TIGTA Semiannual Report to Congress




                                 Inspector General’s
                                     Message to
                                      Congress

O
         ur Nation’s government depends on an effective and efficient tax system. As the demand
         for Federal resources grows, it is important that Americans have faith that their tax dollars
         are fairly and accurately assessed, and that tax laws are administered effectively. The
         Treasury Inspector General for Tax Administration (TIGTA) is charged with ensuring that
these responsibilities are met, and I remain dedicated to upholding this important mission.

I am proud of our accomplishments and pleased to present TIGTA’s Semiannual Report to
Congress. This report highlights notable audit and investigative work conducted between October
1, 2006, and March 31, 2007, and summarizes the statistical results of our work. Over the last six
months, TIGTA has completed 62 audits that identified more than $5.8 million in total cost savings
and more than $541 million in increased or protected revenue.

The Internal Revenue Service (IRS) continues to face many challenges. Recent initiatives to
improve tax compliance, including the use of private collection agencies, implementing last-minute
tax law changes for the 2007 filing season, and unique situations, such as the one-time telephone
excise tax refund, have reinforced my priorities for TIGTA. They include: enhancing our ability to
protect tax administration from corruption; monitoring IRS initiatives to improve tax compliance;
and overseeing IRS efforts to modernize technology.

As the IRS attempts to close a portion of the estimated $345 billion tax gap through its Private Debt
Collection Program, it is critical that contractor performance and accountability be effectively
managed. To that end, the IRS has effectively developed and implemented several aspects of the
program. Specifically, our audits found that contractor employees have been adequately trained
and background investigations have been completed within established guidelines. The IRS
resolved most computer security concerns prior to cases being assigned to the private collection
agencies; however, improvements could be made to better enhance computer security. We will
continue to actively monitor the progress of this program to ensure the protection of taxpayers’
rights and the security of sensitive information.

The IRS is entrusted with sensitive personal and financial information for millions of taxpayers.
Increased reports of identity theft from both the public and private sectors have emphasized the
importance of protecting taxpayer data. A recent TIGTA audit estimated that among 490 IRS
laptops reported lost or stolen between January 2003 and June 2006, some may have contained the
personal information of approximately 2,300 taxpayers. In light of this significant concern, TIGTA
recommended that the IRS alter its incident response procedures and implement a systemic disk
encryption program for all laptops.

The loss or theft of this equipment poses a significant risk to the IRS and potentially to taxpayers.
TIGTA is focused on ensuring that IRS employees are aware of their security responsibilities and



                                                     1
                  TIGTA Semiannual Report to Congress


the need to immediately report the loss or theft of information technology equipment. TIGTA and
the IRS have enhanced existing processes and information management systems to improve
TIGTA’s ability to investigate and recover this equipment. TIGTA’s Office of Investigations and
the IRS are also producing an employee training video that highlights the risks of handling sensitive
information outside controlled environments. The video emphasizes security awareness and the
timely reporting of lost or stolen equipment to both TIGTA and the IRS.

As an essential part of its mission, TIGTA is also concerned about protecting the system of tax
administration from disruption. In June 2006, the IRS National Headquarters building was flooded
with over 20 feet of water. The IRS responded by implementing a business resumption protocol.
TIGTA found that the flood had no measurable impact on tax administration and that sensitive data
stored in the basement area were adequately protected. However, more than 2,200 employees in
the building were displaced, costing the IRS millions of dollars in administrative leave costs.
TIGTA recommended that the IRS expand its telecommuting participation by increasing the
availability of laptop computers as an additional component of its emergency contingency plan.

The TIGTA Inspections and Evaluations staff began its first year of operation after a successful
pilot project last fiscal year. The staff, which is currently part of our Office of Audit, provides
TIGTA with new capabilities and flexibilities to complement the work of our audit and
investigation functions. As part of its responsibilities, the staff routinely analyzes data on the tax
gap, supplying valuable information to various stakeholders.

Despite efforts by the IRS, unauthorized access to confidential tax information (UNAX) remains a
significant problem. During this reporting period, TIGTA opened 242 new UNAX cases and
closed 286 cases, 270 of which resulted in disciplinary action against IRS employees. Our report
highlights some of those investigations.

In addition, TIGTA’s Office of Investigations provided fraud awareness presentations at training
conferences and meetings to more than 28,000 IRS employees and tax practitioners during this
reporting period. This outreach has enabled TIGTA to develop relationships with these groups that
assist in identifying corruption within the IRS and our system of tax administration.

The IRS continues to face many challenges. TIGTA remains dedicated to working with the IRS,
Congress, and other stakeholders to ensure the effectiveness and efficiency of our tax system.

I would like to thank the men and women of TIGTA for their outstanding work. They, along with
the employees of the IRS, serve an extremely important function. I am greatly appreciative of their
hard work and service to the American people.

                                               Sincerely,



                                           J. Russell George
                                           Inspector General




                                                      2
                 TIGTA Semiannual Report to Congress




                           TIGTA's Profile



T       he Treasury Inspector General for
        Tax Administration provides
        independent oversight of Treasury
Department matters involving IRS
activities, the IRS Oversight Board, and
                                                    TIGTA conducts audits and investigations
                                                    designed to:

                                                    •   promote the economy, efficiency, and
                                                        effectiveness of tax administration; and
the IRS Office of Chief Counsel. Although           •   protect the integrity of tax
TIGTA is placed organizationally in the                 administration.
Treasury Departmental Offices and reports
to the Secretary of the Treasury and to
Congress, TIGTA functions independently                            Statutory Mandate
from the Departmental Offices and all other
offices and bureaus within the Department.          •   Protect against external attempts to
                                                        corrupt or threaten IRS employees.
TIGTA’s work is devoted to all aspects of           •   Provide policy direction and conduct,
activity related to the Federal tax system as           supervise, and coordinate audits and
administered by the IRS. By identifying                 investigations related to IRS programs
and addressing the IRS’ management                      and operations.
challenges, implementing the President’s            •   Review existing and proposed legislation
Management Agenda and the priorities of                 and regulations related to IRS programs
the Department of the Treasury, TIGTA                   and operations and make
protects the public’s confidence in the tax             recommendations concerning the impact
system.                                                 of such legislation or regulations.
                                                    •   Promote economy and efficiency in the
TIGTA’s organizational structure is                     administration of tax laws.
comprised of five functional offices: the           •   Prevent and detect fraud and abuse in
Office of Audit (OA); the Office of                     IRS programs and operations.
Investigations (OI); the Office of Chief            •   Inform the Secretary of the Treasury
Counsel; the Office of Information                      and Congress of problems and
Technology; and the Office of Management                deficiencies identified and of the progress
Services (see chart on page 4).                         made in resolving them.




                                                3
                      TIGTA Semiannual Report to Congress


           .

                                     Organizational Structure


                                            Inspector General




                          Chief Counsel




                                                                Deputy Inspector
                        Deputy Inspector                           General for
                        General for Audit                        Investigations



                            Assistant                                Assistant
                       Inspector General                        Inspector General
                        for Management                            for Information
                            Services                                Technology




                                            Authorities

TIGTA has all of the authorities granted            investigate potential criminal offenses under
under the Inspector General Act of 1978, as         the internal revenue laws. In addition, the
amended.1 TIGTA has access to tax                   IRS Restructuring and Reform Act of 1998
information in the performance of its tax-          (RRA 98)2 amended the Inspector General
administration responsibilities. TIGTA also         Act of 1978 to give TIGTA statutory
has the obligation to report potential criminal     authority to carry firearms, execute and serve
violations directly to the Department of            search and arrest warrants, serve subpoenas
Justice. TIGTA and the Commissioner of              and summonses, and make arrests as set forth
Internal Revenue have established policies          in Section 7608(b)(2) of the Internal Revenue
and procedures delineating responsibilities to      Code (I.R.C.).




                                                    2
                                                      Public Law No. 105-206, 112 Stat. 685 (codified as
                                                    amended in scattered sections of 2 U.S.C., 5 U.S.C.
                                                    app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C., 26
1
    5 U.S.C.A. app. 3 (West Supp. 2007).            I.R.C., 31 U.S.C. 38 U.S.C., and 49 U.S.C.).




                                                    4
               TIGTA Semiannual Report to Congress




      Promote the Economy,
   Efficiency and Effectiveness
       of Tax Administration

T      IGTA’s Office of Audit strives to
       promote the economy, efficiency,
       and effectiveness of tax
administration. TIGTA provides
recommendations to improve IRS systems
                                                    The following summaries highlight
                                                    significant audits that TIGTA completed in
                                                    each of the five audit areas of emphasis
                                                    during this six-month reporting period.

and operations, while ensuring fair and
equitable treatment of taxpayers. TIGTA’s           Tax Compliance Initiatives
comprehensive, independent performance
and financial audits of IRS programs and            Tax compliance initiatives include
operations primarily involve mandated               administering tax regulations and collecting
reviews and high-risk challenges facing the         the correct amount of tax for businesses and
IRS.                                                individuals, and overseeing tax-exempt and
                                                    government entities for compliance.
The IRS’ implementation of audit                    Increasing compliance with the tax code is
recommendations results in: cost savings            at the heart of IRS enforcement programs.
and increased or protected revenue;                 The IRS is focusing its casework and
reduction of taxpayer burden; and protection        enforcement activities to deliver better
of taxpayer rights and entitlements, taxpayer       results and to better focus on those
privacy and security, and IRS resources.            corporations and high-income individual
                                                    taxpayers who fail to report or pay what
Each year, TIGTA identifies and addresses           they owe.
the major management challenges facing the
IRS. TIGTA places audit emphasis on                 Private Debt Collection Program
statutory coverage required by RRA 98, and
areas of concern to Congress, the Secretary         As of September 30, 2006, the gross accounts
of the Treasury, the Commissioner of                receivable to the IRS totaled $271 billion. On
Internal Revenue, and other key                     October 22, 2004, the President signed the
stakeholders.                                       American Jobs Creation Act,3 which created a
                                                    new I.R.C. Section 6306 (2004) to permit
                                                    private collection agencies (PCA) to help
        Audit Emphasis Areas                        collect Federal tax debts.
    •   Tax Compliance Initiatives
                                                    Overall, the IRS effectively developed and
    •   Systems Modernization
        of the IRS                                  implemented several aspects of the program,
    •   Tax-Exempt Organizations                    thus providing better assurance that taxpayer
    •   Security of the IRS                         rights are protected and Federal tax
    •   Providing Quality Taxpayer
        Service Operations                          3
                                                        Pub. L. No. 108-357, 118 Stat. 1418 (2004).


                                                5
                         TIGTA Semiannual Report to Congress


     information is secure. Specifically, the IRS                Social Security and Medicare Taxes
     adequately trained contractor employees,
                                                                 TIGTA estimates that the IRS could
     completed background investigations,
                                                                 assess an additional $108 million6 in
     established telephone call monitoring and
                                                                 Social Security and Medicare taxes each
     oversight procedures, and established
                                                                 year. As the tax collector for the Social
     computer and physical security procedures
                                                                 Security program, the IRS must help
     before assigning cases. However, the IRS
                                                                 taxpayers meet their tax responsibilities by
     needs to follow up on computer security
                                                                 assessing and collecting the proper amount
     issues, update procedures, and update the                   of employment taxes in this area.
     application used to calculate projected
     revenue.
                                                                 TIGTA obtained data from the IRS Master
                                                                 File,7 reviewed a statistical sample, and
     TIGTA recommended that the IRS:                             determined that:
     •   includes in the Request for Quotation4 a
                                                                 •   the IRS is not assessing the employer’s
         requirement for PCAs to maintain Federal
                                                                     share of Social Security and Medicare
         tax information on a separate server;
                                                                     taxes on unreported tip income. TIGTA
     •   ensures that PCAs have resolved                             estimated that the IRS assessed $20
         specified computer and physical security                    million in Social Security and Medicare
         concerns;                                                   taxes on tips for Calendar Year (CY)
     •   updates the Contracting Officer’s                           2005, but the IRS could have assessed
         Technical Representative5 and Telephone                     an additional $20 million.
         Monitoring and Case Action Review                       •   the lack of a specific form or adequately
         procedures to ensure consistency and                        written instructions increases the burden
         completeness;                                               on taxpayers trying to report Social
     •   includes in the Request for Quotation a                     Security and Medicare taxes on wages.
         requirement for PCAs to provide to the                      TIGTA estimated that this additional
         IRS for its review and approval a copy of                   burden affected about 377,850
         scripts for all telephone contacts with                     taxpayers filing Form 4137 (Social
         taxpayers; and                                              Security and Medicare Tax on
     •   continues to update and/or modify the                       Unreported Tip Income) during
         revenue model to ensure that the IRS                        CY 2005.
         appropriately accounts for the impact of:               •   many taxpayers appear to be reporting
         taxpayers who opt out of the Program; the                   self-employment income as wages on
         age of the balance due; and the actual                      Form 4137 to pay less Social Security
         collection rate achieved.                                   and Medicare taxes. TIGTA estimated
                                                                     that the IRS could have assessed an
      IRS management agreed with all of the                          additional $88 million in Social
      recommendations and is taking corrective                       Security and Medicare taxes on these
      action.                                                        wages.
      Report Reference No. 2007-30-066
Click on report references to go to online reports               6
                                                                   This is comprised of approximately $20 million in
     4
       A Request for Quotation is a formal solicitation to       Social Security and Medicare taxes on tips, and
     sources outside of the Federal Government for offers        approximately $88 million in Social Security and
     to provide products or services.                            Medicare taxes on wages.
     5                                                           7
       Contracting Officer’s Technical Representatives are         This is the IRS database that contains individual,
     responsible for managing the PCA contracts and              business, employee plans, and exempt organizations
     ensuring compliance with requirements.                      data.
                                                             6
                 TIGTA Semiannual Report to Congress


TIGTA recommended that the IRS revise               Individual taxpayers are required to file
Form 4137 to capture the data necessary to          Form 8283 (Noncash Charitable
properly assess the employer’s share of             Contributions) if their charitable deductions
Social Security and Medicare taxes on               claimed for noncash contributions exceed
unreported tip income, revise instructions          $500. If the value of donated property
on use of the form, and revise IRS training         exceeds $5,000, taxpayers are required to
and procedures to reflect the changes. In           obtain signatures on Form 8283,
addition, TIGTA suggested that the IRS use          acknowledging receipt of the donated
the revised form to develop a compliance            property, and attest that the value placed on
program to assess the employer’s share of           the donated property was determined by a
taxes on the unreported tip income.                 qualified appraisal.

IRS managers agreed with the findings and           The IRS revised tax forms and publications,
recommendations in the report; however,             and provided training and information to
they did not agree with the proposed                employees to facilitate implementing the
corrective actions. In several instances, the       new requirements. However, taxpayers and
IRS proposed its own corrective actions.            tax practitioners still need to be better
TIGTA considered each of the proposed               educated about these requirements. The
alternative corrective actions and found            IRS needs to establish additional
each to be satisfactory.                            procedures to identify noncompliance with
Report Reference No. 2007-30-062                    these requirements when processing
(Limited Official Use)                              returns. Once these two needs are met, the
                                                    IRS will be better able to address potential
Noncash Charitable Contributions                    noncompliance, as Congress intended in its
                                                    legislation.
TIGTA estimated that 101,236 taxpayers
could have claimed unsubstantiated
                                                    TIGTA recommended that the IRS develop
noncash contributions totaling
                                                    a comprehensive outreach plan to address
approximately $1.8 billion for the period
                                                    these requirements for affected taxpayers
January 15 through September 21, 2006.
                                                    and tax practitioners. Procedures should be
Gifts of donated property, clothing, and
                                                    developed to correspond with taxpayers to
other noncash items have long been a
                                                    obtain missing Forms 8283 and supporting
popular deduction for taxpayers. In recent
years, the IRS and Congress have                    documentation. Taxpayers failing to
                                                    provide missing forms and substantiation
questioned the value placed on some of
                                                    should have a specific audit code input on
these noncash donations. As a result,
                                                    their tax returns to alert the IRS’
Congress passed legislation adding
                                                    Examination function of returns that do not
reporting requirements to substantiate the
                                                    include required substantiation for noncash
value of these donations. Currently,
                                                    charitable contributions. In response to the
taxpayers who may not be entitled to these
                                                    report, IRS management agreed with most
deductions are reducing their tax liabilities
                                                    of the recommendations.
and may receive refunds whether or not
they provide the required substantiation.           Report Reference No. 2007-30-049
This could result in a loss of revenue to the
Federal Government and inequitable
treatment of taxpayers.



                                                7
                 TIGTA Semiannual Report to Congress


National Research Program Study of                   (reorganization) modernization. Although
Subchapter S Corporations                            both issues have their own sets of
                                                     challenges, they must both succeed to fully
While the IRS effectively managed and
                                                     modernize the IRS. Business Systems
monitored implementation of the National
                                                     Modernization (BSM) involves integrating
Research Program Study of Subchapter S
                                                     thousands of hardware and software
Corporations, TIGTA noted areas that can
                                                     components over 15 years. The BSM
be improved. Some study results may not be
                                                     program is in its ninth year and has
complete, accurate, or provide information
                                                     received approximately $2.3 billion for
sufficient to update existing return selection
                                                     contractor services. Two of TIGTA’s
formulas. These concerns could reduce the
                                                     highlighted audit reports concern the
reliability of the study results. However, the
                                                     Electronic Fraud Detection System and the
IRS is taking or is planning to take action to
                                                     Modernized e-File System.
reduce these risks.

The IRS included oversight and feedback              Electronic Fraud Detection System
to ensure that, when completed, the study            Since TIGTA’s previous audit,8 the IRS has
provides valuable data. However, in 35               improved executive oversight of the
of 62 examination cases that TIGTA                   Electronic Fraud Detection System (EFDS)
reviewed, revenue agents requested                   project by requiring periodic reports on the
unnecessary information from taxpayers               status and risks of the project. Project
during the examinations. This included               management controls were also improved.
information that was already part of the             Regular meetings are being held with
examination case file or information that            stakeholders and contractors to ensure that
the agents could have obtained using                 tasks are on target for timely completion
research tools readily available. In 10 of           and risks are addressed. If tasks are not
the 35 cases, the revenue agent did not              completed as scheduled, the effect on the
fully explain what information was being             overall schedule is determined and remedial
requested from the taxpayer.                         action is taken, if needed.

TIGTA recommended that the IRS issue a               Although project management controls had
reminder to all examiners that requests for          improved, as of December 8, 2006, risks
information need to be specific and tailored         still remained, because several critical tasks
to each examination. IRS managers stated             were not completed. For example:
that they will issue a reminder in the
Technical Digest to all examiners that               •   the EFDS (applications and three years
requests for information be specific and                 of data) needed to be loaded into the
tailored to the examination and that                     production environment;
examiners consider taxpayer burden in                •   final integration testing was not
preparing the requests.                                  completed; and
Report Reference No. 2007-30-027                     •   the required Enterprise Life Cycle
                                                         documents were not prepared.

Systems Modernization of the IRS
                                                     8
                                                      The Electronic Fraud Detection System Redesign
Modernization of the IRS includes both               Failure Resulted in Fraudulent Returns and
computer systems and business structure              Refunds Not Being Identified (Reference Number
                                                     2006-20-108, dated August 9, 2006).
                                                 8
                 TIGTA Semiannual Report to Congress


On April 19, 2006, the IRS stopped all              related to delivering a client-server based
system development activities for the Web           EFDS and did not apply to any Federal
EFDS and focused all efforts on restoring           Government-directed scope increases.
the client-server EFDS for use in January           Therefore, the IRS would be obligated to
2007. The restoration effort required the           pay the contractor’s fee if a functional
contractors to prepare the EFDS and related         EFDS was not implemented timely, and the
databases for Processing Year (PY) 2007             IRS may not receive the entire equitable
by starting with the PY 2005 EFDS and               adjustment.
updating it with the 2006 and 2007 tax law
changes. Therefore, the EFDS restoration            The IRS should ensure that it receives all of
work did not contain the level of                   the equitable adjustment from CSC. If the
complexity involved in redesigning the              entire adjustment is not received by the end
EFDS into a Web-based system.                       of the original period of performance stated
                                                    in the contract, the IRS should request that
The IRS recently issued a contract for an           CSC pay it the difference between the
estimated amount of $3,080,004 for                  equitable adjustment amount and the credit
restoration work to be performed from               the IRS received during the period of
November 1, 2006, through February 24,              performance. Alternatively, the IRS should
2007. TIGTA reviewed the contract and               request that the application of the remaining
found that payment of the contractor’s fee          equitable adjustment credit owed to the IRS
was not dependent on the timely delivery of         be applied to invoices for future EFDS-
specific EFDS deliverables or milestones.           related task orders or other work being
The contract also established a cost sharing        performed by CSC.
amount not to exceed $3,080,004 as an
equitable adjustment amount to compensate           IRS management agreed with the
the IRS for the cost to restore the client-         recommendation and prepared a
server EFDS. The agreement did not                  modification to the task order to ensure
include a provision that would refund the           that the IRS received the full equitable
unused equitable adjustment to the IRS,             adjustment. The modification was signed
and the cost-sharing commitment was                 on February 23, 2007. It extended the base
exclusively related to delivering a client-         period of performance and included
server EFDS in January 2007.                        additional work within the scope of the cost
                                                    sharing agreement.
From TIGTA’s review of the EFDS project             Report Reference No. 2007-20-052
work breakdown structure (i.e., a list of all
tasks required to complete the project), it         Modernized e-File System
did not appear that the Computer Sciences           The IRS’ plans for processing additional
Corporation (CSC) had $3,080,004 worth              tax forms using the Modernized e-File
of work remaining on the restoration                (MeF) system are uncertain, including plans
project. The EFDS executive agreed with             to schedule development of Form 1040
this conclusion and stated that CSC                 (U.S. Individual Income Tax Return),
verbally agreed to work on two application          which are pending approval from the Office
changes unrelated to the restoration work to        of Management and Budget. As a result of
ensure that the IRS would receive the               these uncertainties, the IRS:
$3,080,004 equitable adjustment.
However, the contract stated that CSC’s
                                                    •   has been unable to use fixed-price
cost-sharing commitment was exclusively
                                                        contracts for the MeF project;
                                                9
                 TIGTA Semiannual Report to Congress


•   has experienced difficulty in managing           Tax-Exempt Organizations
    the project’s funding and contract
    accounting; and                                  The IRS continues to face challenges in
•   has had delays in negotiations and               administering programs focused on tax-
    approvals of the project’s contracting           exempt organizations to ensure that they
    actions.                                         comply with applicable laws and
                                                     regulations to qualify for tax-exempt status.
TIGTA recommended that the IRS ensure                While the IRS has noted that the nonprofit
that the MeF project office involves the             community has not been immune to recent
Enterprise Service organization’s Business           trends in bad corporate practices that have
Rules and Requirements Management                    been highlighted in the for-profit area, it
Office in its efforts to define release              has only recently begun to concentrate on
requirements. The requirements definition            this area since suffering a decline in staffing
should incorporate the concepts and plans of         during the late 1990s.
the Information Technology Modernization
Vision and Strategy, and include the content         According to the Congressional Budget
of each release, expected deployment dates,          Office, nonprofit hospitals received more
and anticipated funding for the release work.        than $6 billion in Federal tax exemptions in
                                                     2002. The IRS is conducting a hospital
TIGTA also recommended that the IRS                  compliance project to assess how tax-
ensure that the appropriate congressional            exempt hospitals believe they provide a
committees are promptly notified of any              community benefit in exchange for tax-
proposed changes to future modernization             favored status. Project information may
program expenditure plans, and identify the          assist the IRS in differentiating tax-exempt
cost effects of deferring significant and            hospitals from for-profit hospitals and could
material project release requirements or             potentially result in regulatory changes or a
work segments to future releases. The IRS            Revenue Ruling.
should direct the MeF project team to work
with the Procurement Office to finalize the          As part of this compliance project, IRS
negotiations of work previously completed            personnel sent a nine-page questionnaire to
and clarify the policy for escalating failed         544 tax-exempt hospitals, soliciting
negotiation attempts.                                information on compensation practices and
                                                     the community benefit standard. At the time
The IRS agreed with most of TIGTA’s                  of TIGTA’s fieldwork, IRS personnel were
recommendations, and corrective actions are          still analyzing the questionnaire responses
underway. However, the IRS did not agree             and identifying potential examination of
to implement a process to identify the cost          organizations based on the manner in which
effect of deferring significant and material         they determined executive compensation.
project release requirements to future               If information gathered in the compliance
releases. TIGTA commented on concerns                project shows that hospitals are taking only
about the rationale the IRS provided for not         minimal action to meet the community
using fixed-priced contracts and the absence         benefit standard, the IRS will consider
of controls to assess the cost effect of             initiating examinations in this area.
deferring requirements to future releases.           Additionally, the compliance project will
Report Reference No. 2007-20-005                     gather information about the practices and
                                                     procedures that tax-exempt organizations use

                                                10
                  TIGTA Semiannual Report to Congress


to assign compensation and promote                    final compliance report scheduled for
compliance in this area, if necessary.                September 2008.

IRS management will prepare two reports               IRS management generally agreed with the
summarizing the results of its analyses               recommendation. The interim report will
of the questionnaires and related                     reflect the community benefit information
examinations. An interim report, due in               pertaining to tax-exempt hospitals.
July 2007, will present the results of the            However, IRS management stated that it
tax-exempt hospitals’ responses to the                was too early in the process to determine if
community benefit questions. This report              a supplemental report on community
will include any recommendations for the              benefit was needed or what the precise next
next steps that are planned to address the            steps will be, but agreed to issue a
community benefit standard. IRS                       supplemental report, if necessary.
management plans to issue a final report              Report Reference No. 2007-10-061
publicly in September 2008, summarizing
the results of the tax-exempt hospital
compliance project. This report will                  Security of the IRS
provide an update on the community
benefit standard since the issuance of the            Millions of taxpayers entrust the IRS with
interim report and will include a summary             sensitive financial and personal data stored
of the examination results related to excess          in and processed by IRS computer systems.
compensation.                                         Recent reports of identity theft from both
                                                      the private and public sectors have
While the IRS has specific plans for                  heightened awareness of the need to protect
addressing potential noncompliance with               this data. The risks that sensitive data or
the executive compensation issue, it is still         computer systems could be compromised
in the process of evaluating the responses            and computer operations disrupted continue
and has not determined what is needed for             to increase. Both internal factors such as
this issue. Because of the complexity that            increased connectivity of computer systems
currently exists in the industry and the              and increased use of portable laptop
potential for new regulations, TIGTA                  computers, and external factors such as the
believes it is premature to plan for a final          volatile threat environment related to
project report covering both executive                increased terrorist and hacker activity,
compensation and community benefit                    cause these risks.
issues. If extensive action is needed to
address noncompliance in the community                Lost and Stolen Laptop Computers and
benefit area, including developing new                Other Computer Devices
Revenue Rulings or recommending
regulatory changes, IRS management may                TIGTA found that IRS employees had lost
need to develop separate plans to                     at least 490 computers between January 2,
accomplish this. As a result, TIGTA                   2003, and June 13, 2006. Also, employees
recommended that the IRS ensure that the              did not properly encrypt data on computer
interim report includes all planned actions           devices, and password controls over laptop
related to community benefit issues and               computers were not adequate. The IRS
develop plans to prepare a separate final             annually processes more than 220 million
report on this issue, if all necessary actions        tax returns containing personal financial
will not be completed for inclusion in the            information and personally identifiable
                                                      information such as Social Security
                                                 11
                  TIGTA Semiannual Report to Congress


Numbers. As a result, it is likely that               15 of the 44 laptop computers with
sensitive data for a significant number of            unencrypted sensitive data, TIGTA found
taxpayers have been unnecessarily exposed             security weaknesses that could be exploited
to potential identity theft and/or other              to bypass these security controls. TIGTA
fraudulent schemes.                                   evaluated the security of backup data stored
                                                      at four offsite facilities, and found that, at
IRS procedures require employees to                   all of the facilities, backup data were
report lost or stolen computers to the IRS            neither encrypted nor adequately protected.
Computer Security and Incident Response               TIGTA noted that inventory controls of
Center (CSIRC) and TIGTA’s Office of                  backup media were inadequate, and
Investigations. For the period of TIGTA’s             attributed these weaknesses to a lack of
review, employees reported the loss of                emphasis by management.
computers and other sensitive data in
387 separate incidents. Employees                     TIGTA recommended that the IRS:
reported 296 (76 percent) of the incidents
to TIGTA, but not to the CSIRC. In                    •   refine incident response procedures to
addition, employees reported 91 incidents                 ensure that sufficient details are
to the CSIRC, but 49 of these incidents                   gathered regarding taxpayers who are
were not reported to TIGTA. Coordination                  potentially affected by a loss;
to identify the full scope of the losses was          •   consider purchasing computer cable
inadequate between the CSIRC and                          locks for employees’ laptop computers;
TIGTA.                                                •   periodically publicize an explanation of
                                                          employees’ responsibilities for
TIGTA conducted a test on 100 laptop                      preventing loss of computer equipment
computers currently in use by IRS                         and taxpayer data, penalties for
employees and found that 44 laptop                        neglecting these responsibilities, and a
computers contained unencrypted sensitive                 summary of actual violation statistics
data, including taxpayer data and employee                and disciplinary action;
personnel data. As a result, TIGTA                    •   include a reminder about encrypting
believes it is very likely that a large number            sensitive information in the employees’
of lost computers contained similar                       annual certification of security
unencrypted data. TIGTA also found other                  awareness, including instructions on
computer devices, such as flash drives,                   using approved encryption software on
CDs, and DVDs, on which sensitive data                    electronic media devices, such as flash
were not always encrypted. TIGTA                          drives; and
reported similar findings in July 2003,9 but          •   consider implementing a systemic disk
the IRS had not taken adequate corrective                 encryption solution on laptop computers
actions.                                                  that does not rely on employees’
                                                          discretion about what data to encrypt.
In addition to encryption solutions to
protect sensitive data on its laptop                  Finally, TIGTA recommended that the IRS
computers, the IRS requires controls, such            implement procedures to encrypt backup
as usernames and passwords, to restrict               data sent to non-IRS offsite facilities and
access to laptop computers. However, for              ensure that employees assigned to oversee
                                                      these facilities conduct an annual inventory
9
 Security Over Computers Used in Telecommuting        validation of backup media and a physical
Needs to Be Strengthened (Reference Number
2003-20-118, dated July 2003).
                                                      security check of the offsite facility used to
                                                 12
                 TIGTA Semiannual Report to Congress


store the media. IRS management agreed               IRS facilities where taxpayer information is
with the findings in the report and has              vulnerable.
taken, or planned to take, appropriate
corrective action. For two of the                    The IRS’ process for pre-screening its
recommendations, the IRS offered                     employees prior to conducting background
alternative corrective action that adequately        investigations was found to be appropriate
addressed the findings. TIGTA concurred              and effective. IRS employees were
with the planned corrective action.                  fingerprinted and preliminary checks were
Report Reference No. 2007-20-048                     completed prior to the employees gaining
                                                     access to IRS facilities and systems. Also,
Background Investigations of Employees               IRS employee background investigations
and Contractors                                      were appropriate for the level of risk
                                                     associated with the positions.
Background investigations were not
completed timely for IRS and contractor
                                                     TIGTA recommended that the IRS ensure
employees. Of the background
                                                     that its management information system is
investigations that TIGTA sampled within
                                                     programmed to track the time expended to
established IRS baselines, the IRS did not
                                                     process background investigations. Alerts
timely complete 77 percent of the IRS
                                                     and reports to management should be
employee investigations and 72 percent of
                                                     developed to enable management to
the contractor employee investigations.
                                                     determine when and where delays occur to
Delays in processing background
                                                     ensure that investigations are completed
investigations increase the risk that the IRS
                                                     within established baselines. In addition,
may be hiring unsuitable employees and
                                                     managers, contracting officials, and system
could compromise sensitive taxpayer
                                                     administrators should be reminded to review
information, physically harm employees,
                                                     documentation verifying that contractor
and disrupt operations.
                                                     employees have been pre-screened before
                                                     they are given access to computer systems.
Furthermore, temporary bank (lockbox)
employees, who assist at lockbox sites in
                                                     IRS management stated that action is
handling over $360 billion in taxpayer
                                                     underway to improve background
remittances per year, receive only an annual
                                                     investigations of temporary bank employees
fingerprint check. In 2005, 54 remittances
totaling approximately $2.8 million were             and cleaning contractor employees. In
                                                     addition, IRS management agreed with the
stolen from one lockbox site alone. The IRS
                                                     recommendations in the report, and
is currently working with the Department of
                                                     corrective action is underway.
the Treasury Financial Management Service
to revise the requirements for hiring                Report Reference No. 2007-20-059
temporary lockbox employees.
                                                     Business Resumption after Flooding at
One other concern is that background                 IRS Headquarters
investigations were not always required for          In June 2006, the subbasement and
cleaning contractor employees who had                basement of the IRS National Headquarters
access to IRS office space. Hiring these             building in Washington, D.C., were flooded
employees without performing background              with over 20 feet of water. Many IRS
investigations increases the risk that               personnel displaced by the flood were
unsuitable individuals will gain access to           either unable to telecommute or unable to

                                                13
                 TIGTA Semiannual Report to Congress


do so effectively, which resulted in granting         computers as they reach the end of their
IRS personnel approximately 101,000 hours             useful lives with laptop computers.
of administrative leave. IRS personnel who            Effective telecommuting could have
work in the Headquarters building are                 lowered the $4.2 million of salary costs
involved with activities that do not require a        associated with the administrative leave. In
significant amount of day-to-day contact              addition, the IRS should ensure that a
with taxpayers.                                       comprehensive analysis is completed and
                                                      well documented on its overall performance
                                                      in responding to and recovering from the
                                                      flood.

                                                      The IRS agreed that expanding
                                                      telecommuting participation and the use of
                                                      laptops can serve business resumption
                                                      needs, and noted that it will advocate the
                                                      consideration and use of telecommuting as
                                                      a contingency planning strategy. It will
                                                      also encourage using laptops in emergency
             IRS Headquarters,                        situations, and recommend that these
              Washington, D.C.
                                                      decisions be included in its business
The IRS responded by implementing                     resumption plans. Additionally, the IRS
business resumption plans that contain                indicated that it is finalizing a document to
specific procedures for managing such                 capture the analysis that was conducted and
events. While the flood displaced more                lessons learned from the flood.
than 2,200 IRS personnel who worked in                Report Reference No. 2007-30-028
the building, TIGTA found that the
displacement had no measurable impact on              Protection of Sensitive Data and
taxpayers and tax administration.                     Restoration of Computer Operations
The IRS needs to complete a                           The flooding at the IRS Headquarters
comprehensive assessment of its response              building in Washington, D.C., could have
to the flooding of the Headquarters                   resulted in the loss of taxpayer data and
building. The assessment should capture               disruption in computer operations.
the overall successes and lessons learned in          Computer assets were removed from the
responding to and recovering from the                 building before an asset-tracking system
flood. Such an assessment could be useful             was put in place, and a physical inventory
to IRS officials in the future when faced             validation of computer assets remaining in
with a similar challenge or one of greater            the building could not be performed while
magnitude.                                            the building was closed. However, due to
                                                      preparatory and responsive actions, the IRS
TIGTA’s Inspection and Evaluation Team                adequately protected sensitive data in the
recommended that the IRS develop a                    aftermath of the flooding and restored
business case for deciding whether or not to          computer operations for its Headquarters
expand telecommuting participation by                 employees.
increasing the availability of laptop
computers to IRS personnel, including
comparing the various costs and benefits
associated with replacing desktop
                                                 14
                  TIGTA Semiannual Report to Congress


                                                       TIGTA’s findings and have taken
                                                       appropriate corrective actions.
                                                       Report Reference No. 2007-20-023


                                                       Providing Quality Taxpayer
                                                       Service Operations

                                                       Since the 1990s, the IRS has increased
                                                       delivery of quality customer service to
 Destroyed equipment in the basement of the IRS
       Headquarters Building after flooding            taxpayers. In fact, in its current strategic
                                                       plan, the IRS’ first goal is to improve
The IRS adequately protected taxpayer data             taxpayer service. The Senate Committee on
stored throughout the building against the             Appropriations has noted that the IRS lacks
risk of unauthorized access. In addition,              a concrete plan to provide adequate
destroyed taxpayer data stored in the                  alternative services to replace services
basement were properly protected and                   proposed for reduction or elimination. In
disposed of. A little more than one month              response, the IRS developed a five-year
after the flooding, the IRS had completed              Taxpayer Assistance Blueprint that will
workstation space arrangements for                     help it focus on providing the appropriate
displaced employees in 15 different                    types and amounts of service. TIGTA
locations in the District of Columbia,                 continues to identify the need for
Maryland, and Virginia. Within the same                improvement in taxpayer services provided
time period, unassigned computers were                 through toll-free, face-to-face, and
located for those employees without                    electronic methods.
computers, configured to fit each
employee’s needs, and technical support                Missing and Exploited Children
was provided to allow employees to                     On a quarterly basis, the IRS provides the
reconnect to the IRS network. In addition,             National Center for Missing and Exploited
the IRS restored computer infrastructure               Children (NCMEC) with a list that shows
operations that were conducted in the                  which instructions and publications include
Headquarters building prior to the flooding.           which missing children. However, this
Critical servers were moved from the                   information is not always accurate. By
Headquarters building to other IRS                     enhancing the Picture Them Home Program
facilities and restored for availability to            and improving the process used to publish
employees within two weeks after the                   pictures, the IRS could include more
flooding. TIGTA commends the IRS’                      pictures of missing children in its printed
efforts and believes that its actions                  instructions and publications.
minimized the disruption caused by the
flooding.                                              IRS data could provide additional value if
                                                       that data were used to help locate missing
TIGTA recommended that the IRS ensures                 children and/or their alleged abductors.
that the Incident Management Plans for all             However, according to 26 U.S.C. § 6103,
IRS locations include implementing an                  the IRS is restricted from sharing tax
asset-tracking system immediately after a              returns or return information. The law
disaster. IRS officials agreed with                    provides that tax return information is

                                                  15
                 TIGTA Semiannual Report to Congress


confidential and may not be disclosed by             E-Help Desk Program
the IRS, other Federal and State                     TIGTA had several concerns about the
government employees, and certain others             E-Help Desk Program. Examples included:
having access to the information. TIGTA
conducted an analysis of the NCMEC cases
                                                     •    customer satisfaction not being
that contained Social Security Numbers for
                                                          measured;
missing children and/or alleged abductors
                                                     •    quality measures and procedures not
and identified new addresses (i.e., addresses
                                                          fully established and developed; and
different from those where the children
and/or alleged abductors lived at the time of        •    processes and procedures not being
the abductions) for 237 (46 percent) of                   developed to ensure that predefined
520 missing children and 104 (34 percent)                 solutions are accurate and current, or
of 305 alleged abductors.                                 that management information is
                                                          accurate and reliable.
Disclosure of tax return information to
Federal officers or employees for use in             The IRS recognizes the need to provide
criminal investigations is an exception. The         customers of its electronic products and
Federal Bureau of Investigation (FBI) has            services with the ability to obtain the
jurisdiction and investigative                       assistance needed to successfully use these
responsibilities over crimes against                 products. Since the inception of the E-Help
children, including violations of Federal            Desk in 2002, the IRS has continued to
statutes relating to kidnappings, such as            identify ways to improve program
child abductions, and domestic and                   efficiency and customer service. However,
international parental kidnappings. The law          continued expansion in the availability and
authorizes disclosure of tax returns and             use of electronic products and services
return information to Federal law                    requires that improvements are made to
enforcement personnel such as the FBI if a           ensure that the program can continue to
Federal district court judge or magistrate           provide effective customer service.
grants an ex parte order. The information,
such as taxpayer identifying information             TIGTA recommended that the IRS develop:
and the sources of income and deductions,
could provide leads to help locate missing           •    a process to ensure that it timely
children and/or the alleged abductors.                    measures customer satisfaction;
                                                     •    quality measures as well as a process to
TIGTA recommended that the IRS ensure                     assess progress in achieving the
that available blank space is consistently                measures;
identified and considered for picture                •    processes and procedures to ensure that
placement in all instructions and                         predefined solutions10 are accurately
publications, and that it develop a process               developed, timely monitored, and
to ensure that management information                     appropriately approved;
accurately reflects which instructions and           •    processes and procedures to ensure that
publications include which missing                        management information is complete
children. The IRS agreed with the                         and accurate; and
recommendations and is taking corrective
action.
Report Reference No. 2007-40-029                     10
                                                        To ensure the consistency of responses provided
                                                     to customers, the E-Help Desk uses a set of
                                                     predefined solutions for common problems.
                                                16
                     TIGTA Semiannual Report to Congress


•    a process to ensure that assistors                            The American Foundation for the Blind
     complete required training.                                   reports that there are between 7 million and
                                                                   10 million people in the United States who
IRS management agreed with all the                                 are blind or vision impaired. The National
recommendations in the report and has                              Eye Institute11 reports that by 2020, the
already taken action to address them.                              number of people who are blind or have
Report Reference No. 2007-40-026                                   low vision is projected to increase
                                                                   substantially. This includes the senior
Taxpayers with Vision Impairments                                  vision-impaired population that is expected
                                                                   to increase from 7.3 million in 2001 to 14.8
Most notices taxpayers receive from the
                                                                   million by 2030.
IRS are standardized computer-generated
notices using 12-point Arial font for                              The IRS provides tax forms and
document headings and 11-point Arial font                          publications in formats accessible to
for text language. These font sizes for                            taxpayers with vision impairments to help
notices may be too small for taxpayers with                        them file their tax returns. These formats
vision impairments to read. There is                               include large print, Braille, and “talking
currently neither a systemic process to                            forms.”12 The Braille and talking form
routinely provide large print notices for                          documents are accessible to people using
taxpayers who need or desire them, nor a                           special assistive technology, including
process or means to capture the number of                          screen-reading software, refreshable Braille
taxpayers who need or desire alternative                           displays, and voice recognition software.
media. Thus, the IRS cannot determine the                          During FY 2006, the Alternative Media
population of taxpayers with vision                                Center made more than 782 tax forms and
impairments and study the need for more                            109 publications available in alternative
service options. Although the IRS provides                         media.
forms and publications in alternative media,
it discourages taxpayers from filing tax                           Currently, the IRS’ national partners serve
returns in these formats.                                          as the primary source of information about
                                                                   the needs of vision-impaired taxpayers.
                                                                   Recently the IRS initiated a program,
    The Growth of the Senior Population with                       TAXfacts+, which is a public-private
             Vision Impairments                                    collaborative study designed to improve the
                                                                   long-term economic well being of
                                                                   Americans with disabilities. In addition,
                                                                   the IRS is undergoing a five-year study,
                                                                   called the Taxpayer Assistance Blueprint,
                                                                   to improve customer service. However,
                                                                   neither TAXfacts+ nor the Taxpayer
                                                                   11
                                                                      The National Eye Institute conducts and supports
Sources:                                                           research that leads to sight-saving treatments and
   - IRS Project Number, 7-03-16-2-037N, Visual Impairment         plays a key role in reducing visual impairment and
and the Aging of the Population;
                                                                   blindness. It is part of the National Institutes of
  - Robin Leonard, Statistics on Vision Impairment – A
Resource Manual, The Arlene R. Gordon Research Institute of        Health, an agency of the United States Department
Lighthouse International, April 2002.                              of Health and Human Services.
                                                                   12
                                                                     Talking forms are tax forms that are accessible to
                                                                   Web site users who have a screen reader and
                                                                   speech recognition software.
                                                              17
                 TIGTA Semiannual Report to Congress


Assistance Blueprint focuses on the needs           •   accessible through the Free File Web
of taxpayers with vision impairments. The               site to blind and other taxpayers with
senior population is expected to double by              vision impairments; and
2030, and vision loss from eye diseases will        •   partnering with advocacy groups to
increase as Americans age. The IRS should               conduct a study to determine the current
consider the challenges that the estimated          •   and future needs and required services
71 million senior citizens will have by 2030            for taxpayers with vision impairments,
when interacting with the IRS to meet their             and then using the results to develop a
tax obligations.                                        long-term strategy to assist taxpayers
                                                        with vision impairments.
TIGTA made several recommendations to
the IRS, including:                                 IRS management agreed with all of the
                                                    recommendations. It has taken and has
•   considering the feasibility of providing        committed to take appropriate corrective
    an interface that would make tax-               action to address the recommendations.
    preparation software packages                   Report Reference No. 2007-40-057




                                               18
                TIGTA Semiannual Report to Congress




       Protect the Integrity of Tax
             Administration

                                                 •

T      IGTA’s mission is to help protect
       the ability of the IRS to collect
       revenue for the Federal
Government. To accomplish this,
                                                     conducting integrity and fraud
                                                     awareness presentations for IRS
                                                     employees, tax practitioners,
                                                     community groups, and others;
TIGTA’s Office of Investigations (OI)            •   investigating assaults and threats
conducts investigations and proactive                made against IRS employees,
investigative initiatives to ensure the              facilities, and information systems;
integrity of IRS employees, contractors,
                                                 •   investigating fraud, waste, and abuse
and other tax professionals; to ensure
                                                     involving IRS procurements;
IRS employee and infrastructure
security; and to protect the IRS from            •   operating a national complaint center,
external attempts to corrupt tax                     including a hotline and Web site, to
administration. OI’s Performance Model               process complaints of fraud, waste,
(see page 20) emphasizes high-quality                abuse, and misconduct involving IRS
investigations relative to these three               employees and programs;
areas.                                           •   operating a Criminal Intelligence
                                                     Program to manage and coordinate
While most Offices of Inspector General              threat information that could impact
focus primarily on fraud, waste, and                 the security of IRS personnel and
abuse, TIGTA’s mission is far more                   operations;
extensive. TIGTA’s statutory mandate             •   conducting forensic examinations of
includes responsibility to protect the               physical and electronic evidence to
integrity of Federal tax administration.             support investigations; and
OI performs a variety of functions to            •   using technical and investigative
accomplish this mandate, including:                  support equipment, training, and
                                                     specialized services to enhance
•   investigating allegations of criminal            investigative operations.
    violations that impact Federal tax
    administration, and serious                  In November 2004, J. Russell George
    administrative misconduct by IRS             was confirmed by the U.S. Senate as
    employees;                                   TIGTA’s new Inspector General. At that
•   conducting proactive investigative           time, Mr. George identified four
    initiatives to detect criminal and           priorities for TIGTA. These priorities
    administrative misconduct in the             addressed the tremendous challenges
    administration of IRS programs;              facing the IRS as the nation moves into
                                                 the 21st century.

                                            19
                                TIGTA Semiannual Report to Congress




        TTIIG
            GTTA
               A’’S
                  S IIN
                      NVVE
                         ESSTTIIG
                                GAATTIIV
                                       VEEP
                                          PEER
                                             RFFO
                                                ORRM
                                                   MAAN
                                                      NC EM
                                                        CE MO
                                                            ODDE
                                                               ELL

                                                                  Criminal &
                                                                Administrative
                                                                Investigations




                                                                 Employee
                                                                  Integrity


                                               Integrity                         Complaints
                                               Program                           Processed




                         Bribery                                                                          Threat & Assault
                     (Non-Employee)                                                                        Investigations
                                                           TIGTA INVESTIGATIONS




                        External                                                                           Employee &
                        Attempts
                     To Corrupt Tax                                                                       Infrastructure
                     Administration                                                                          Security


  Manipulation/                                                                           Threat
                                      Fraud & Other                                                                          Computer Intrusion
 Corruption of IRS                                                                    Assessments &
                                      Nexus-Related                                                                           Security Systems
     Systems                                                                        Security Advisories
                                         Crimes




TIGTA’s Office of Investigations bases its performance measures on three primary areas
of investigation: employee integrity; employee and infrastructure security; and external
attempts to corrupt tax administration. Each of these three areas is subdivided into three
categories, all designed to support the agency’s law enforcement goals.




                                                                                 20
                TIGTA Semiannual Report to Congress


Those priorities are the same today:              levies, and that she could assist in the
                                                  resolution of the matters because of her
• enhance TIGTA’s ability to                      status as an IRS contract auditor and her
  protect tax administration from                 tax expertise. Sharrit prepared and sent
  corruption;                                     to the company numerous fictitious
• assist the IRS to improve tax                   documents concerning the alleged tax
  compliance initiatives;                         issues, purportedly prepared by various
• monitor use of private debt                     Government agencies, including the IRS.
  collection agencies; and                        Some of these documents purportedly
• oversee IRS business systems                    reflected that Sharrit made settlement
  modernization efforts.                          payments to the Government in
                                                  connection with the alleged outstanding
                                                  tax liabilities. As a result, Sharrit
Protect Tax Administration                        fraudulently induced the company to
                                                  issue payments to her of at least
                                                  $46,687.50, for claimed expenses, hourly
TIGTA promotes the economy,                       wages, and settlement of outstanding
efficiency, and effectiveness of tax              liabilities with various Government
administration, while protecting the              agencies. Despite Sharrit’s
integrity of the nation’s tax system. OI’s        representations, she did not pay any of
strategy for accomplishing this important         this money to Government agencies and
mission is to conduct high impact                 did not perform any services for the
investigations that protect the ability of        company that involved resolving any
the IRS to collect the nation’s tax               alleged tax problems.
revenue.
                                                  Wisconsin Man Pleads Guilty to
The following cases are examples of               Impeding Administration of Internal
TIGTA investigations that involve the             Revenue Laws by Threatening Force
protection of tax administration, and
were conducted during this reporting              Todd Schulze was arrested at his
period.                                           residence in October 2006 by TIGTA
                                                  Special Agents. He pleaded guilty in
Individual Indicted for False                     February 2007 in the U.S. District Court
Personation and Wire Fraud                        for the Western District of Wisconsin to
                                                  impeding the administration of internal
Bonnie Sharrit was indicted in November           revenue laws by threatening force during
2006 by a Federal Grand Jury in the U.S.          a telephone call made from New York to
District Court for the District of                Wisconsin. According to court
Massachusetts on three counts of false            documents, an IRS employee in New
personation and ten counts of wire fraud.         York contacted Schulze about taxes he
According to the indictment, Sharrit              owed to the IRS. During the recorded
engaged in a scheme to defraud a                  conversation with the IRS employee,
company by billing it for false and               Schulze stated, “I’m a little concerned
unnecessary services and expenses.                about this because this is strictly a matter
Sharrit represented to the company that           where you want to call to seize my
the company and its principals had                account, and if you do that, I’ll start
certain tax problems resulting in the             killing people and you can record that.”
imposition of Government liens and                As a result of this threat, the IRS
                                             21
                TIGTA Semiannual Report to Congress


Taxpayer Assistance area in Madison,              earned zero gross and taxable income.
Wisconsin was shut down for three and a           But, in fact, Helwich had earnings during
half hours.                                       those tax years, including but not limited
                                                  to $739,725. He also submitted altered
                                                  documents, frivolous correspondence,
Taxpayer Charged with Assaulting
                                                  and forms to the IRS, and made false
IRS Employee and Federal Law
                                                  statements to the IRS concerning his
Enforcement Officers
                                                  gross and taxable income. In furtherance
In January 2007, Antenene Oden was                of the corrupt endeavor, Helwich passed
charged with assaulting and impeding an           checks drawn on a closed bank account
IRS Senior Tax Resolution Officer and             in purported payment of outstanding
Federal law enforcement officers in the           income taxes, penalties, and interest that
performance of their official duties.             he owed the IRS. Between December
According to the criminal complaint filed         2002 and October 2004, Helwich
in the U.S. District Court for the                submitted almost 40 checks to the IRS,
Northern District of New York, during a           ranging from a few hundred dollars to
confrontation with an IRS officer, Oden           more than $380,000. He continued to
struck him on the cheek with her                  submit checks to the IRS on the closed
forearm, knocking his glasses off. When           bank account even after IRS agents told
Federal law enforcement officers                  him the account had been closed.
attempted to place Oden in handcuffs,
she kicked, screamed, and spit at them.           Individual Pleads Guilty to
                                                  Threatening to Murder Federal
Individual Charged with Corruptly                 Employees
Interfering with Administration of
                                                  Robert Nelson pleaded guilty in February
Internal Revenue Laws
                                                  2007 in the U.S. District Court for the
In December 2006, Walter Helwich was              District of Idaho to threatening to murder
charged in the U.S. District Court for the        Federal employees. According to court
Northern District of Illinois, Eastern            documents, on December 6, 2006,
Division, with corrupt or forcible                Nelson called the IRS office in Boise,
interference with the administration of           Idaho, and left a voice mail message in
internal revenue laws. According to the           which he threatened to blow up the IRS.
indictment, Helwich impeded and                   The next day, Nelson made a telephone
impaired the IRS in carrying out its              call to the U.S. Social Security office in
lawful function to assess and collect             Boise, Idaho, and left a voice mail
income taxes, penalties, interest, and            message at that office in which he
fines for the United States. Helwich              threatened to murder Federal employees
signed and filed purported income tax             with the intent to intimidate and interfere
returns for four tax years on behalf of           with them while they were engaged in
“Senior America Estate Planning Trust,”           their official duties. Nelson admitted to
falsely reported his own income as                making the threat to the Social Security
income of the alleged trust, and claimed          office, but denied making the threat that
that the trust owed no taxes. He also             was left on the voice mail at the IRS.
signed and filed individual income tax
returns for nine tax years on behalf of
himself and for seven years on behalf of
his spouse, and falsely reported that he
                                             22
                TIGTA Semiannual Report to Congress


Individual Charged with Threatening               messenger, law enforcement agent,
to Kill IRS Employee                              agency of the Internal Revenue Service,
                                                  touches or messes with any of my
In January 2007, William Kelly was
                                                  property, accounts, or anything, they will
charged in the U.S. District Court for the
                                                  be put to death.” During the call, Kelly
District of Oregon with threatening to
                                                  also threatened the IRS auditor, who
assault an IRS auditor with the intent to
                                                  previously audited his tax returns. The
interfere and impede because of her
                                                  criminal complaint also indicates that in
official duties. According to the criminal
complaint, in June 2005, Kelly called the         1996 and 2001, Kelly made similar
                                                  threatening statements involving IRS
IRS concerning his tax issues and stated
                                                  employees. In March 2007, Kelly
to an IRS employee, “I have told and
                                                  entered into a Pretrial Diversion
informed the Internal Revenue Service in
                                                  program.
previous phone calls, if any, any




                                             23
             TIGTA Semiannual Report to Congress



                           B
                           BRRIIB
                                BEER
                                   RYY IIN
                                         NVVEESSTTIIG
                                                    GAATTIIO
                                                           ONNSS

Bribery investigations continue to be vital in TIGTA’s attempt to thwart criminal
activities that threaten the integrity of tax administration. Bribe offers impede the IRS’
ability to properly collect revenue, and if gone unchecked, substantially undermine the
integrity of Federal tax administration. As U.S. President Theodore Roosevelt
observed over a century ago, “There is no crime more serious than bribery. Other
offenses violate one law while corruption strikes at the foundation of all law.”

The IRS has stepped up tax enforcement efforts in recent years to reduce the tax gap,
which is defined as the difference between what taxpayers owe and what they
voluntarily and timely pay. These efforts have resulted in an increase in desire by
unscrupulous taxpayers to resort to bribery to avoid paying taxes due. In fact, since
the beginning of this fiscal year, the number of investigations of significant bribery
allegations has increased.

The following cases are examples of bribery investigations conducted during this
reporting period.

Individual Sentenced for Paying $5,000 Bribe to IRS Employee
In October 2006, Ming Liou was sentenced for bribery of a public official in the U.S.
District Court for the Southern District of Ohio. According to court documents, Liou
gave a designer purse and $5,000 to an IRS employee with the intent to unlawfully
influence an official act. Liou was sentenced to 12 months and one day imprisonment,
and was ordered to pay a $10,000 fine and a $100 special assessment.

Taxpayer Indicted for Bribing IRS Revenue Officers
Yan Borr was indicted in February 2007 for bribing a public official. According to court
documents filed in the U.S. District Court for the Eastern District of New York, Borr
gave U.S. currency to a person acting on behalf of the IRS with the intent to influence
an official act. During several meetings, Borr and IRS Revenue Officers (RO)
discussed his outstanding tax liabilities. Borr indicated that he could not fully pay the
outstanding tax liabilities, which were approximately $15,000 as of that date, and
indicated that he had a couple of “bonds” that he could cash and give to the RO, if the
RO could take care of his situation. At another meeting, Borr met with another RO and
gave the RO an envelope containing $1,000, in exchange for reducing his tax liability
from approximately $22,000 to approximately $8,500. Borr then offered and gave the
RO an additional $500 to reduce the tax liability by an additional $2,000.

Individual Sentenced for Bribery of IRS Representative
In December 2006, a U.S. District Court Judge in the Middle District of Florida, Tampa
Division, sentenced Diana Hong to 12 months and one day probation, and ordered her
to pay a $100 assessment, for bribery of a public official. According to the indictment,
Hong gave $1,500 to an IRS representative for the delivery of a “no change” letter
concerning her sister’s 2002 individual income tax return.




                                                 24
                  TIGTA Semiannual Report to Congress


Improve Tax Compliance                            at professional conferences during the
Initiatives                                       reporting period.

The tax gap threatens the integrity of            The following are examples of cases
our voluntary tax system. It requires a           conducted during this reporting period that
concerted effort to identify and address          involved particularly egregious fraudulent
individuals within the IRS who play key           activity.
roles in the collection of Federal
revenue and interaction with external             Individual Sentenced for Stealing IRS
stakeholders. OI has worked diligently            Refunds from Soldiers and Families
to make contact with and educate large            After pleading guilty to one count of theft of
segments of the IRS workforce and                 public money, Clarence G. Maxwell III was
other external entities about preventing          sentenced in December 2006 in the U.S.
fraud in the tax system. By doing so,             District Court for the Western District of
TIGTA has developed relationships with            Texas, Austin Division, to five years
these groups that assist in identifying           probation, and was ordered to pay restitution
crimes against the IRS and taxpayers.             of $11,276.51 and a $100 assessment.
This results in increased reports of              According to court documents, Maxwell was
bribery, UNAX, and other offenses that            assigned to the Fort Hood Tax Center to
undermine effective tax administration.           assist soldiers and their families in preparing
During the reporting period, TIGTA                and filing Federal income tax returns. From
provided presentations to more than               March 2005 through May 2005, Maxwell
28,000 IRS employees, and external                altered five tax returns that he assisted in
entities, including tax professional              preparing by falsely designating his own
organizations, and briefings for entities         personal bank account as the account into
within the IRS, such as the Office of             which the IRS was directed to deposit the
Employee Protection and the Office of             claimed tax refunds, all without the
the Commissioner of Internal Revenue.             knowledge or authorization of the taxpayers.
For example, OI has provided integrity            As a result of his scheme, Maxwell caused
and fraud awareness presentations to              the IRS to deposit in excess of $11,000 into
Revenue Officers and Revenue Agents               bank accounts that he possessed or
at their Continuing Professional                  controlled.
Education (CPE) conferences. During
the reporting period, OI provided 97              Former IRS Employee Indicted for False
awareness presentations to 2,115                  Personation and Bank Fraud
Revenue Officers and 227 integrity and
                                                  In December 2006, former IRS employee
awareness presentations to 5,224
                                                  Jacqueline Exum was indicted in the U.S.
Revenue Agents.
                                                  District Court for the Western District of
                                                  Tennessee for false personation, bank fraud,
Additionally, OI’s outreach strategy
                                                  and bankruptcy fraud. According to the
includes an effort to partner with the tax
                                                  indictment, Exum pretended to be an IRS
preparer and practitioner community in
                                                  employee and devised a scheme to defraud
preventing fraud in the tax system. OI
                                                  various banks and credit unions by applying
worked to educate tax professionals by
                                                  for and receiving a new Social Security
providing 151 awareness presentations
                                                  Number (SSN). Using the new SSN, her
to 9,848 tax practitioners and preparers
                                                  original SSN, and variations of them, she


                                             25
                  TIGTA Semiannual Report to Congress


applied for credit, personal loans, and car           he devised and intended to devise to
loans. She used variations of her maiden              defraud the IRS, the Oregon Department
name in connection with her new and                   of Revenue, and various clients.
original SSNs in an effort to conceal her true        According to court documents, Kyllo
identity when applying for loans at financial         instructed his clients to leave the payee
institutions. She also created fictitious             line blank on checks they provided to
SSNs, leave and earning statements, and tax           him to pay their tax liabilities. Kyllo
documents, and provided them to the                   then fraudulently endorsed the checks
lending institutions to support her loan              and deposited them into one of his own
applications. In an effort to conceal her             bank accounts for his own use. As part
fraudulent scheme, when the loans became              of his scheme, Kyllo told his clients that
delinquent and foreclosure proceedings were           he hand-delivered their returns to the
imminent, Exum filed bankruptcy petitions             IRS, when in fact he did not file their
to maintain the vehicles and other                    returns. When his clients received
possessions. She received in excess of                notices from the IRS indicating that they
$100,000 in cash, merchandise, and loans.             had outstanding tax liabilities and/or
                                                      their returns had not been filed, Kyllo
Former IRS Employee Sentenced for                     mailed his clients fraudulently created
Theft of Government Funds                             letters purportedly from the IRS that
                                                      indicated the problem had been
In January 2007, Shelly Thompson, a former
                                                      resolved. To delay discovery of his
IRS seasonal employee, was sentenced in
                                                      fraud, Kyllo prepared false tax returns
the U.S. District Court for the Eastern
                                                      for his clients and filed them with the
District of California to 24 months of
                                                      IRS, stopping the IRS from sending
probation, 150 hours of unpaid community
                                                      notices to his clients. As a result of his
service, $5,048 in restitution, and a $25
                                                      scheme, Kyllo caused losses totaling
assessment. According to the plea
                                                      more than $1.3 million. He also billed
agreement, Thompson caused a tax refund
                                                      and collected fees for his services.
of $5,048, intended for taxpayers, to be
deposited directly into her bank account.
She did this by preparing the taxpayers’
2003 Federal joint tax return, signing their          Monitor Use of Private
signatures, and providing her bank account            Collection Agencies
information as the location to which the
refund was to be direct deposited.                    TIGTA continues to monitor the IRS Private
Thompson did this without the knowledge or            Debt Collection (PDC) Program that is
consent of the taxpayers.                             designed to contract the collection of
                                                      delinquent Federal tax debts to private
Certified Public Accountant Pleads Guilty             collection agencies, as authorized by the
to Defrauding IRS and Others of More                  2004 American Jobs Creation Act (see
Than $1.3 Million                                     footnote 3 on page 5). While the use of
                                                      private collection agencies could result in
In January 2007, Certified Public
                                                      significant recoveries of unpaid taxes, the
Accountant Harry Kyllo pleaded guilty
                                                      potential for abuse exists. The law subjects
in the U.S. District Court for the District
                                                      the collection agencies to the same rigorous
of Oregon to mail fraud, false
                                                      taxpayer protection and privacy rules under
personation, and attempting to defeat
                                                      which IRS employees currently work.
payment of tax, all related to a scheme


                                                 26
                  TIGTA Semiannual Report to Congress


Consistent with TIGTA’s mission of
protecting tax administration, OI continues                  Forensic Support of
to play a critical role in implementing the                  Investigative Efforts
PDC Program by providing oversight, input,
and support to the IRS.                               TIGTA’s investigative efforts are greatly
                                                      enhanced by its Forensic Science
                                                      Laboratory (FSL). Established in 1981,
For example, OI has reviewed documents
                                                      the FSL provides timely crime laboratory
that the IRS uses to solicit bids from private        services in direct support of TIGTA’s
collection agencies and monitored the                 investigations through the processing of
integrity of the IRS procurement process              physical evidence using various
that led to the award of three collection             techniques and best practices.
agency contracts. Additionally, OI
participated in the production of an IRS              Tax Return Preparer Sentenced for
training video for contractor employees, and          Impeding Administration of Internal
provided presentations and on-site training           Revenue Laws and False Statements
about TIGTA’s role in the PDC Program to              David Klingelsmith, Sr., was sentenced
IRS and contractor personnel. Also, OI’s              in January 2007 in the U.S. District
Strategic Enforcement Division continued              Court, Southern District of Florida, Fort
its work with the IRS Computer Security               Pierce Division, to 16 months in prison,
Incident Response Center (CSIRC) to                   three years of supervised release with
conduct on-site vulnerability testing of              the special condition that he cooperate
computer systems maintained by the three              fully with the IRS in determining and
                                                      paying tax liabilities, was fined $15,000,
PCAs that received IRS contracts.
                                                      and ordered to pay a $200 assessment.
                                                      According to court documents,
                                                      Klingelsmith submitted to the IRS a
                                                      power of attorney with forged signatures
                                                      of taxpayers, and falsely advised the
                                                      IRS that the taxpayers had not given
                                                      him records. Klingelsmith also prepared
                                                      and signed a letter purporting to be from
                                                      an IRS employee. In the letter, he
                                                      advised a taxpayer that tax liens were
                                                      filed in error and that the taxpayer
                                                      should ignore notices from the IRS,
                                                      when Klingelsmith knew that the tax
                                                      liens were not filed in error. TIGTA’s
                                                      FSL assisted in the investigation by
                                                      conducting handwriting and fingerprint
                                                      analysis.




                                                 27
                  TIGTA Semiannual Report to Congress


Oversee IRS Modernization Efforts                        unauthorized access to IRS computer
                                                         systems.
IRS efforts to modernize its programs
and operations have required a                        The availability of these audit trails provides
significant investment of public monies.              OI with opportunities to identify potential
Currently, the combined value of active               UNAX violations and properly investigate
IRS procurements, including each                      misconduct. OI’s Strategic Enforcement
contract’s base and option years, is                  Division (SED) uses a variety of audit trail
approximately $61 billion. OI’s                       and forensic data analysis tools to
Procurement Fraud Section (PFS),                      proactively identify potential UNAX
located within the Special Inquiries and              violators, and systemic problems and
Intelligence Division (SIID), is                      weaknesses. Investigative leads that SED
committed to identifying and                          developed are currently substantiated as
investigating procurement fraud within                actual UNAX violations more than 90
the IRS. The PFS achieves its goals in                percent of the time. In this reporting period,
this area through proactive and reactive              TIGTA opened 242 new UNAX cases and closed
investigations, fraud awareness                       286 cases, of which 14 cases resulted in
presentations, investigative initiatives,             criminal prosecutions, and 270 cases
and data analysis. These investigative                resulted in adverse disciplinary action
efforts relate directly to TIGTA’s core               against IRS employees.
mission of preventing external attempts
to corrupt the IRS’ ability to administer             OI works closely with the IRS to
the tax laws effectively.                             identify incidents involving lost or
                                                      stolen Government computers that
The IRS continues its efforts to modernize            contain sensitive taxpayer information
and expand services to taxpayers by                   or PII, and aggressively pursues the
developing new automated systems. To                  responsible individuals. In response to
date, the IRS has identified more than                increased reports of theft of
260 applications that will be affected by this        Government-owned computers over the
modernization effort. Because these                   past year, TIGTA and the CSIRC have
systems maintain sensitive taxpayer                   worked together to mitigate any adverse
information, including personally                     impact on tax administration resulting
identifiable information (PII), the IRS is            from these computer or data thefts.
working with TIGTA to ensure that each                During this reporting period, the
system will have appropriate audit trail              cooperative efforts of both parties
capabilities.                                         resulted in the signing of a
                                                      Memorandum of Understanding that
OI ensures the privacy and security of                includes a process to accurately report
taxpayer information by detecting and                 and document lost and/or stolen IRS
deterring:                                            Information Technology assets. This
                                                      immediate notification process will
•   unauthorized access to taxpayer                   promote a swift response, and possibly
    information by IRS employees; and                 preemptive measures, to protect
•   individuals, both inside and outside of           sensitive information maintained by the
    the IRS, who attempt to gain                      IRS.




                                                 28
                  TIGTA Semiannual Report to Congress


SED was instrumental in identifying                   consecutive days of home detention, and was
UNAX violations in the following                      ordered to pay a $750 fine and a $125
investigations.                                       assessment.

Former IRS Employee Sentenced for                     IRS Employee Charged with
Inspecting Tax Return Information                     Unauthorized Access and Inspection of
without Authorization                                 Tax Return Information
In November 2006, former IRS employee                 IRS employee Joanne C. Morado was
Terri Ward was sentenced in the U.S.                  charged in December 2006 in the U.S.
District Court for the Eastern District of            District Court for the Eastern District of
California to 12 months of probation, a $500          California with five counts of unauthorized
fine and a $25 assessment, and was ordered            inspection of returns or return information
to complete 100 hours of unpaid community             and four counts of fraud and related
service. According to the plea agreement,             activities with computers. According to a
while an employee of the IRS, Ward made               court document, Morado willfully and
numerous unauthorized accesses to inspect             without authorization, accessed and
private tax return information of individuals         inspected the accounts of four private
without the authorization of the IRS and/or           individuals. She also intentionally accessed
the individuals.                                      a computer without authorization and
                                                      obtained tax return information of private
Former IRS Employee Sentenced for                     individuals from the IDRS.
Unauthorized Access of Computer
In April 2007, former IRS employee Patricia
                                                      Former IRS Contact Representative
Kraft was sentenced in the U.S. District
                                                      Sentenced for Exceeding Authorized
Court for the Eastern District of California
                                                      Access of Computer
for tampering with a witness and
unauthorized access of a computer.                    Former IRS employee Andrea McNeail was
According to court documents, Kraft                   sentenced in the U.S. District Court for the
intentionally exceeded her authorized access          Western District of Tennessee, Western
to the IRS Integrated Data Retrieval System           Division, for intentionally exceeding
(IDRS) and obtained tax return information            authorized access of a computer. According
from a tax account of a taxpayer with whom            to court documents, McNeail obtained the
she had a personal relationship. Kraft also           name and SSN of an individual by
attempted to offer to forgive a $200 debt             exceeding her authorized access of a
owed to her by a family friend if the friend          computer. She pleaded guilty in July 2006,
falsely told law enforcement agents that he           and was sentenced in October 2006 to three
had requested previously filed W-2 Forms              years of probation with the conditions that
and other documents from IRS employees,               she participate in a home detention program
when he had not done so. Kraft did this with          for six months and in career and academic
the intent to prevent communicating to a law          counseling. McNeail is also prohibited from
enforcement officer information related to the        receiving any more Federal loans or
unauthorized access to a computer. She was            guarantees. She was also ordered to pay
sentenced to 36 months of probation with the          $210.30 in restitution and a $100
special conditions that she complete 200              assessment.
hours of unpaid community service and 180



                                                 29
                 TIGTA Semiannual Report to Congress




                           Congressional
                             Testimony


I   nspector General J. Russell George
    appeared before Congress twice during
    this semiannual reporting period. The
following are summaries of his testimony.
                                                     On March 20, 2007, Mr. George submitted
                                                     testimony to the House Committee on
                                                     Ways and Means’ Subcommittee on
                                                     Oversight for a hearing on the 2007 tax
                                                     filing season. Mr. George reported that the
On February 16, 2007, Mr. George                     number of electronically filed tax returns
testified before the House Committee on              continued to increase this tax season;
the Budget during its hearing on the IRS             however, the IRS would not meet
and the tax gap. Mr. George stated that the          Congress’ goal of 80 percent of all returns
IRS has appropriately refocused audit                being filed electronically by 2007.
attention on high-income taxpayers.                  Nevertheless, because the goal has had a
However, this effort has been conducted              positive effect, TIGTA agrees with the IRS
through an increase in correspondence                Oversight Board that Congress should
examinations rather than face-to-face                extend that goal to 2012.
examinations. This type of examination
limits the tax issues that can be addressed,         Mr. George also stated that customer
he said. Because high-income households              service during the tax filing season was
typically have a large percentage of their           satisfactory. However, he raised concerns
income that is not subject to third-party            about the one-time refund for the telephone
reporting and withholding, it is difficult to        excise tax, which was estimated to affect
determine whether these taxpayers have               between 151 million and 189 million
reported all of their income.                        people. He stated that TIGTA was
                                                     concerned because many taxpayers were
In addition, Mr. George stated that in order         not claiming the credit; and others, who
to improve compliance in business tax                were claiming the credit, were submitting
filings, TIGTA has recommended that the              claims for amounts that were considered to
IRS establish a comprehensive document-              be highly questionable, but did not meet the
matching program for the various business            IRS’ criteria for further review.
documents it receives.




                                                31
                TIGTA Semiannual Report to Congress




                  Awards and Special
                    Achievements



     TIGTA Executive Receives Presidential Rank Award




                                       Steven M. Jones
                           Deputy Inspector General for Investigations




In October 2006, TIGTA’s Deputy Inspector General for Investigations, Steven M. Jones,
received the Presidential Rank Award for Meritorious Service for his sustained, extraordinary
accomplishments. Each year, the President recognizes a small group of outstanding leaders in
the Senior Executive Service who achieve results and consistently demonstrate strength in
leadership, integrity, industry, and relentless commitment to excellence in public service.




                                                33
                         TIGTA Semiannual Report to Congress




                                    Audit
                             Statistical Reports

                                Reports with Questioned Costs

TIGTA issued six audit reports with questioned costs during this semiannual reporting period.13
The phrase “questioned cost” means a cost that is questioned because of:

•      an alleged violation of a provision of a law, regulation, contract, or other requirement
       governing the expenditure of funds;
•      a finding, at the time of the audit, that such cost is not supported by adequate
       documentation (an unsupported cost); or
•      a finding that expenditure of funds for the intended purpose is unnecessary or unreasonable.
The phrase “disallowed cost” means a questioned cost that management, in a management
decision, has sustained or agreed should not be charged to the Government.


                                              Reports With Questioned Costs
                                                                       Questioned Costs         Unsupported Costs
                      Report Category                      Number       (in thousands)            (in thousands)
    1. Reports with no management decision at the
       beginning of the reporting period                     9             $165,469                    $82,853
    2. Reports issued during the reporting period            6               $5,822                        $33
    3. Subtotals (Item 1 plus Item 2)                        15            $171,291                    $82,886
    4. Reports for which a management decision
       was made during the reporting period14
         a. Value of disallowed costs                        1                   $0                         $0
         b. Value of costs not disallowed                    1                  $21                         $0
    5. Reports with no management decision at the
       end of the reporting period (Item 3 minus Item 4)     14           $171,26915                 $82,88515
    6. Reports with no management decision
       within 6 months of issuance                           9             $165,469                    $82,853
13
   See Appendix II for identification of audit reports involved.
14
   IRS management disallowed only a part of the questioned cost for one report. The value of the disallowed and
unsupported costs was less than $1,000.
15
   Difference due to rounding.




                                                             35
                TIGTA Semiannual Report to Congress




                Reports with Recommendations That
                    Funds Be Put to Better Use



TIGTA issued no reports with recommendations that funds be put to better use during this
semiannual reporting period. The phrase “recommendation that funds be put to better use”
means a recommendation that funds could be used more efficiently if management took actions
to implement and complete the recommendation, including:
•   reductions in outlays;
•   deobligations of funds from programs or operations;
•   costs not incurred by implementing recommended improvements related to operations;
•   avoidance of unnecessary expenditures noted in pre-award reviews of contract agreements;
•   prevention of erroneous payment of the following refundable credits: Earned Income Tax
    Credit and Child Tax Credit; and
•   any other savings that are specifically identified.
The phrase “management decision” means the evaluation by management of the findings and
recommendations included in an audit report, and the issuance of a final decision concerning its
response to such findings and recommendations, including actions concluded to be necessary.




                                                36
                   TIGTA Semiannual Report to Congress




            Reports with Additional Quantifiable Impact
                       on Tax Administration


In addition to questioned costs and funds put          (entitlements) are also included in this
to better use, the Office of Audit has                 category, such as when taxpayers legitimately
identified measures that demonstrate the               assert that they overpaid their taxes.
value of audit recommendations to tax
administration and business operations. These          Taxpayer Privacy and Security: Protection
issues are of interest to Congress, Treasury           of taxpayer financial and account information
Department and IRS executives, and the                 (privacy). Processes and programs that
taxpaying public, and are expressed in                 provide protection of tax administration,
quantifiable terms to provide further insight          account information, and organizational
into the value and potential impact of the             assets (security).
Office of Audit’s products and services.               Inefficient Use of Resources: Value of
Including this information also promotes               efficiencies gained from recommendations to
adherence to the intent and spirit of the              reduce cost while maintaining or improving
Government Performance and Results Act.                the effectiveness of specific programs;
                                                       resources saved that would be available for
Definitions of these additional measures are:          other IRS programs. Also, the value of
Increased Revenue: Assessment or                       internal control weaknesses that resulted in an
collection of additional taxes.                        unrecoverable expenditure of funds with no
                                                       tangible or useful benefit in return.
Revenue Protection: Proper denial of
claims for refunds, including                          Reliability of Management Information:
recommendations that prevent erroneous                 Ensuring the accuracy, validity, relevance,
refunds or efforts to defraud the tax system.          and integrity of data, including the sources
                                                       of data and the applications and processing
Reduction of Burden on Taxpayers:                      thereof, used by the organization to plan,
Decreases by individuals or businesses in the          monitor, and report on its financial and
need for, frequency of, or time spent on               operational activities. This measure will
contacts, record keeping, preparation, or costs        often be expressed as an absolute value
to comply with tax laws, regulations, and IRS          (i.e., without regard to whether a number is
policies and procedures.                               positive or negative) of overstatements or
                                                       understatements of amounts recorded on the
Taxpayer Rights and Entitlements at Risk:              organization’s documents or systems.
The protection of due process rights granted
to taxpayers by law, regulation, or IRS                Protection of Resources: Safeguarding
policies and procedures. These rights most             human and capital assets, used by or in the
commonly arise when filing tax returns,                custody of the organization, from inadvertent
paying delinquent taxes, and examining the             or malicious injury, theft, destruction, loss,
accuracy of tax liabilities. The acceptance of         misuse, overpayment, or degradation.
claims for and issuance of refunds




                                                  37
                         TIGTA Semiannual Report to Congress




The number of taxpayer accounts and dollar values shown in the following chart were derived
from analyses of historical data, and are thus considered potential barometers of the impact of
audit recommendations. Actual results will vary depending on the timing and extent of
management’s implementation of the corresponding corrective actions, and the number of
accounts or subsequent business activities impacted from the dates of implementation. Also,
a report may have issues that impact more than one outcome measure category.


             Reports With Additional Quantifiable Impact On Tax Administration
                                                    Number of           Number of         Dollar Value
          Outcome Measure Category1                  Reports2        Taxpayer Accounts   (in thousands)

    Increased Revenue                                    1                 456,688           $541,124

    Revenue Protection                                   1                                        $21

    Reduction of Burden on Taxpayers                     4                 378,115

    Taxpayer Rights and Entitlements at Risk             2                    691

    Taxpayer Privacy and Security                        1                    480

    Inefficient Use of Resources                         2                                      $2,786

    Reliability of Management Information                2                                  $3,520,000

    Protection of Resources                              0
1
     Management did not agree with the outcome measures in the following reports:
•     Taxpayer Rights and Entitlements at Risk: Report Reference Number 2007-40-053
•     Reliability of Management Information: Report Reference Number 2007-20-024
The following reports contained quantifiable impacts in addition to the number of taxpayer accounts and dollar
value:
•   Taxpayer Rights and Entitlements at Risk: Report Reference Number 2007-30-051
•   Reduction of Burden on Taxpayers: Report Reference Numbers 2007-20-026
•   Reliability of Management Information: Report Reference Number 2006-40-026
2
     See Appendix II for identification of audit reports involved.




                                                                38
                         TIGTA Semiannual Report to Congress




                              Investigations
                            Statistical Reports

                                      Significant Investigative Achievements
                                          October 1, 2006 – March 31, 2007

Complaints/Allegations Received by TIGTA
       Complaints against IRS Employees                                                                        2,179
       Complaints against Non-Employees                                                                        2,059

      Total Complaints/Allegations                                                                             4,238

Status of Complaints/Allegations Received by TIGTA
       Investigations Initiated                                                                                1,643
                                  1
       In Process within TIGTA                                                                                   296
       Referred to IRS for Action                                                                                288
       Referred to IRS for Information Only                                                                      852
                                      2
       Referred to a Non-IRS Entity                                                                                9
       Closed with No Referral                                                                                   857
       Closed with All Actions Completed                                                                         293
      Total Complaints                                                                                         4,238

Investigations Opened and Closed
       Total Investigations Opened                                                                             1,854
       Total Investigations Closed                                                                             1,612

Financial Accomplishments
       Embezzlement/Theft Funds Recovered                                                                  $129,581
       Court Ordered Fines, Penalties and Restitution                                                     $2,283,316
       Out-of-Court Settlements                                                                                    0

      Total Financial Accomplishments                                                                   $2,412,897
1
    Complaints for which final determination had not been made at the end of the reporting period.
2
    A non-IRS entity includes other law enforcement entities or Federal agencies.

Note: The IRS made 50 referrals to TIGTA that would more appropriately be handled by the IRS, and therefore were returned to
the IRS. These are not included in the total complaints shown above.




                                                                    39
                        TIGTA Semiannual Report to Congress



                                        Status of Closed Criminal Investigations
                                                                                                Non-
                                                                       Employee                                          Total
        Criminal Referrals1                                                                    Employee
            Referred – Accepted for Prosecution                             27                       58                  85
            Referred – Declined for Prosecution                            296                     233                  529
            Referred – Pending Prosecutorial Decision                       52                       54                 106

        Total Criminal Referrals                                           375                     345                  720

        No Referral                                                        445                     433                  878
1
    Criminal referrals include both Federal and State dispositions.


                                                  Criminal Dispositions2
                                                                      Employee           Non-Employee                 Total
Guilty                                                                     24                      39                    63
Nolo Contendere (no contest)                                                0                        1                    1
Pre-trial Diversion                                                         4                        4                    8
                         3
Deferred Prosecution                                                        0                        0                    0
Not Guilty                                                                  0                        1                    1
Dismissed4                                                                  1                        4                    5

Total Criminal Dispositions                                                29                      49                    78
2
  Final criminal dispositions during the reporting period. This data may pertain to investigations referred criminally in prior
reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
Investigations table above.
3
  Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain
conditions imposed by the court. Upon the defendant’s completion of the conditions, the court dismisses the case. If the
defendant fails to fully comply, the court reinstates prosecution of the charge.
4
  Court dismissed charges.


                    Administrative Dispositions on Closed TIGTA Investigations5
                                                                                                                      Total
Removed, Terminated or Other                                                                                            291
Suspended/Reduction in Grade                                                                                             95
Oral or Written Reprimand/Admonishment                                                                                   83
Closed – No Action Taken                                                                                                 80
Clearance Letter Issued                                                                                                 100
Employee Resigned Prior to Adjudication                                                                                 130
                                                      6
Non-Internal Revenue Service Employee Actions                                                                           251

Total Administrative Dispositions                                                                                     1,030
5
  Final administrative dispositions during the reporting period. This data may pertain to investigations referred administratively
in prior reporting periods and does not necessarily relate to the investigations closed in the Investigations Opened and Closed
table.
6
  Administrative actions taken by the IRS against non-IRS employees.




                                                                      40
                       TIGTA Semiannual Report to Congress



                                Appendix I
                            Statistical Reports
                                  - Other
                            Audit Reports with Significant
                          Unimplemented Corrective Actions
The Inspector General Act of 1978 requires identification of significant recommendations described in previous
semiannual reports for which corrective actions have not been completed. The following list is based on
information from the IRS Office of Management Control’s automated tracking system maintained by Treasury
management officials.



                  IRS                                                      Report Title and Recommendation
                                                      Projected
Reference      Management                                                              Summary
                                        Issued       Completion
Number          Challenge                                              (F = Finding No., R = Recommendation No.,
                                                        Date
                  Area                                                               P = Plan No.)
 2001-30-052      Tax Compliance        March 2001                     Program Improvements Are Needed to Encourage Taxpayer
                     Initiatives                                       Compliance in Reporting Foreign Sourced Income

                                                       12/15/07        F-3, R-1, P-1, P-2. Improve systems that process data that the IRS
                                                                       receives on foreign sourced income.
 2003-10-054   Using Performance and    March 2003                     The Internal Revenue Service Needs to Establish an Effective Process
                Financial Information                                  to Accurately Identify, Record, and Report Unemployment Trust Fund
               for Program and Budget                                  Administrative Expenses
                      Decisions
                                                       10/01/07        F-1, R-3, P-1. Ensure that the ability to record and report trust fund
                                                                       administrative expenses, as currently envisioned in the IFS development
                                                                       plans, is properly implemented.
 2003-10-094   Erroneous and Improper   March 2003                     Improvements Are Needed in the Monitoring of Criminal
                     Payments                                          Investigation Controls Placed on Taxpayers’ Accounts When Refund
                                                                       Fraud is Suspected

                                                       05/15/07        F-1, R-2, P-1. Ensure that regular reviews of the Questionable Refund
                                                                       Program are conducted to assess compliance with procedures and that
                                                                       feedback is provided regarding program effectiveness. Also, analyses of
                                                                       the Fraud Detection Center’s control listing data should be analyzed to
                                                                       ensure that reviews are done and accounts are resolved.

 2003-40-139      Tax Compliance        June 2003                      Opportunities Exist to Improve the Administration of the Earned
                     Initiatives                                       Income Tax Credit

                                                       10/15/07        F-1, R-2, P-1. Establish a consistent method to measure progress toward
                                                                       the Earned Income Tax Credit (EITC) Program’s long-term goals.

 2003-20-118     Security of the IRS     July 2003                     Security Over Computers Used in Telecommuting Needs to Be
                                                                       Strengthened

                                                       01/15/08        F-1, R-6, P-1. Require front-line managers to periodically check their
                                                                       employees’ laptop computers to ensure that sensitive data are being
                                                                       stored and encrypted properly.




                                                                  41
                       TIGTA Semiannual Report to Congress


                  IRS                                                       Report Title and Recommendation
                                                      Projected
Reference      Management                                                               Summary
                                        Issued       Completion
Number          Challenge                                               (F = Finding No., R = Recommendation No.,
                                                        Date
                  Area                                                                P = Plan No.)
 2003-30-176      Tax Compliance          August                        Interest Paid to Large Corporations Could Significantly Increase
                     Initiatives           2003                         Under a Proposed New Revenue Procedure

                                                        12/15/07        F-1, R-2, P-1. Gather pertinent information concerning the affected
                                                                        proposed procedure to reduce the length of examinations and interest
                                                                        costs by conducting a pilot program to demonstrate the actual benefits
                                                                        that could be achieved.
 2003-10-212       Human Capital        September                       Information on Employee Training Is Not Adequate to Determine
                                          2003                          Training Cost or Effectiveness

                                                      P-3: 09/30/07     F-3, R-2, P-3, P-4. Ensure that IRS training and financial systems can
                                                      P-4: 10/01/07     provide information needed for the IRS to assess its own training efforts.

 2004-20-001   Systems Modernization     October                        Risks Are Mounting As the Integrated Financial System Project Team
                     of the IRS           2003                          Strives to Meet an Aggressive Implementation Date

                                                        12/31/10        F-2, R-1, P-1. Ensure that the disaster recovery environment is
                                                                        completely built-out and tested.

 2004-30-038      Tax Compliance         January                        Access to the Toll-Free Telephone System Was Significantly Improved in
                     Initiatives          2004                          2003, but Additional Enhancements Are Needed

                                                        07/15/07        F-3, R-1, P-1. Develop an Activity-Based Costing system that reliably
                                                                        captures and reports both the total cost and the cost-per-call of providing
                                                                        services on each toll-free product line.

 2004-30-068      Tax Compliance        March 2004                      Additional Efforts Are Needed to Improve the Bank Secrecy Act
                     Initiatives                                        Compliance Program

                                                        07/15/08        F-2, R-1, P-1. Develop standard risk-based case selection criteria that
                                                                        would provide minimum requirements and parameters for case
                                                                        selection.

 2004-40-098   Erroneous and Improper   May 2004                        Better Use of the National Account Profile During Returns
                     Payments                                           Processing Can Eliminate Erroneous Payments

                                                        06/15/07        F-2, R-1, P-1. Conduct studies on the accuracy of EITC claims on tax
                                                                        returns for individuals who have been claimed for EITC purposes who
                                                                        are 20 or more years older than the primary taxpayer, or are listed as
                                                                        children that are up to 19 years older than the primary taxpayer.

 2004-20-131     Security of the IRS    September                       The Use of Audit Trails to Monitor Key Networks and Systems Should
                                          2004                          Remain Part of the Computer Security Material Weakness

                                                        04/30/12        F-2, R-4, P-1. Develop and implement a reasonable approach for
                                                                        reviewing audit trails over major applications.

 2004-10-182   Using Performance and    September                       The Internal Revenue Service Faces Significant Challenges to Reduce
                Financial Information     2004                          Underused Office Space Costing $84 Million Annually
               for Program and Budget
                      Decisions                         04/01/07        F-2, R-3, P-1. Consider allocating rent funds to the operating divisions
                                                                        to help ensure more efficient use of space and more communication
                                                                        between the facility managers and the local operating divisions; consider
                                                                        incentives and consequences to ensure better cooperation.




                                                                   42
                     TIGTA Semiannual Report to Congress


                  IRS                                                   Report Title and Recommendation
                                                   Projected
Reference      Management                                                           Summary
                                     Issued       Completion
Number          Challenge                                           (F = Finding No., R = Recommendation No.,
                                                     Date
                  Area                                                            P = Plan No.)
 2005-40-026   Providing Quality      February                      Processes Used to Ensure the Accuracy of Information for Individual
               Taxpayer Service         2005                        Taxpayers on IRS.GOV Need Improvement
                  Operations
                                                    12/31/10        F-1, R-1, P-4. Develop a process to ensure that only authorized
                                                                    personnel have access to IRS.gov content.
                                                    12/31/10        F-1, R-2, P-1, P-2. Enhance the IRS’ content management software
                                                                    application to provide the ability to identify specific content accessed or
                                                                    revised by individual users.
 2005-20-024   Security of the IRS   March 2005                     The Disaster Recovery Program Has Improved, but It Should Be
                                                                    Reported as a Material Weakness Due to Limited Resources and
                                                                    Control Weaknesses

                                                    12/31/10        F-1, R-1, P-1, P-5. Report a disaster recovery program material
                                                                    weakness to the Department of the Treasury as part of the IRS’ Federal
                                                                    Managers’ Financial Integrity Act of 1982 annual evaluation of controls
                                                                    and include any new or currently underway activities in the corrective
                                                                    action plan.
 2005-10-070    Human Capital        March 2005                     The Human Resources Investment Fund is Not a Cost-Effective
                                                                    Method of Providing Tuition Assistance

                                                    09/30/07        F-2, R-1, P-1. Consider eliminating the HRIF Program and provide
                                                                    tuition assistance through alternative means, such as the Individual
                                                                    Development Plan process and the Career Transition Assistance
                                                                    Program.

 2005-10-107    Human Capital        July 2005                      Improved Policies and Guidance Are Needed for the Telework
                                                                    Program

                                                    10/15/08        F-1, R-1, P-1. Ensure that an IRS-wide Flexiplace Program policy is
                                                                    developed and implemented that addresses all the elements
                                                                    recommended by the OPM.
                                                    10/15/08        F-2, R-1, P-1. Implement guidelines to assist managers in evaluating
                                                                    employees’ abilities to participate in the Flexiplace Program without a
                                                                    loss in productivity.
                                                    10/15/07        F-2, R-2, P-1. Ensure that Flexiplace Program training is provided as
                                                                    needed to help address productivity concerns.
                                                    10/15/08        F-2, R-3, P-1. Assess the logistical support and equipment needs of
                                                                    Flexiplace Program participants to help ensure that there is no loss in
                                                                    productivity.

 2005-40-110   Providing Quality     July 2005                      The Effectiveness of the Taxpayer Assistance Center Program Cannot
               Taxpayer Service                                     Be Measured
                  Operations
                                                    10/15/07        F-1, R-1, P-1. Enhance the management information system to capture
                                                                    the number of taxpayers served, the numbers and types of services
                                                                    provided, and the related resources.
                                                    10/15/07        F-1, R-2, P-1. Develop a Service Delivery Plan for the short-term and
                                                                    long-term direction of the TAC Program based on business cases and
                                                                    customer input.
                                                    10/15/07        F-1, R-3, P-1. Develop a process that includes routine assessments of
                                                                    TAC operations to ensure that the TACs are optimally located and that
                                                                    the services provided at the TACs are the most effective and cost
                                                                    efficient.




                                                               43
                       TIGTA Semiannual Report to Congress


                  IRS                                                     Report Title and Recommendation
                                                     Projected
Reference      Management                                                             Summary
                                        Issued      Completion
Number          Challenge                                             (F = Finding No., R = Recommendation No.,
                                                       Date
                  Area                                                              P = Plan No.)
 2005-10-129     Providing Quality      September                     Progress Has Been Made, but Further Improvements Are Needed in
                 Taxpayer Service         2005                        the Administration of the Low-Income Taxpayer Clinic Grant
                    Operations                                        Program

                                                      05/15/07        F-1, R-1, P-2. Establish goals and performance measures for the LITC
                                                                      program to assist the Congress and IRS in evaluating the success of the
                                                                      program.
                                                      03/15/07        F-3, R-2, P-1. Develop a method to obtain information necessary to
                                                                      verify that clinics are following all LITC program requirements.
 2005-30-140      Tax Compliance        September                     Improved IRS Coordination Is Needed to Resolve Large Volumes of
                     Initiatives          2005                        Fraudulent Schedule C Refund Returns

                                                      10/15/07        F-1, R-1, P-2, P-3. Develop an overall compliance strategy for
                                                                      Schedules C with fraudulent refunds, especially when large volumes of
                                                                      returns are involved.
                                                      10/15/07        F-1, R-2, P-2, P-3. Identify potential computerized methods
                                                                      incorporating possible math error authority to temporarily stop refunds
                                                                      for cases meeting the characteristics of those in this scheme or other
                                                                      large Schedule C refund schemes.
 2005-10-149       Human Capital        September                     The Internal Revenue Service Does Not Adequately Assess the
                                          2005                        Effectiveness of Its Training

                                                      04/15/07        F-1, R-1, P-1, P-2. Require all business units to follow the training
                                                                      assessment and develop requirements and properly document this
                                                                      process.
                                                      09/30/07        F-2, R-1, P-1, P-2. Ensure that all IRS components follow established
                                                                      procedures to evaluate training in order for the IRS to comply with the
                                                                      training assessment requirement of the Federal Workforce Flexibility
                                                                      Act of 2004.
                                                      04/15/07        F-3, R-1, P-1. Use the numerical scores from the Employee Satisfaction
                                                                      Survey training question in addition to narrative comments.

 2005-30-154   Processing Returns and   September                     The Clarity of Math Error Notices Has Been Improved, but Further
               Implementing Tax Law       2005                        Changes Could Enhance Notice Clarity and Reduce Unnecessary
               Changes During the Tax                                 Notices
                   Filing Season
                                                      04/15/07        F-1, R-2, P-1. Revise tax statement tables contained on notices to
                                                                      include specific amounts from at least some line items on which
                                                                      taxpayers made errors on their tax returns.
                                                      04/15/07        F-1, R-3, P-1. Revise CP16 to present information in a manner
                                                                      consistent with the other notices sent to individual taxpayers including
                                                                      the location of the error explanation and tax statement, and the wording
                                                                      of the taxpayers’ rights to appeal with the math error adjustment.

 2006-30-006    Taxpayer Compliance     November                      The Internal Revenue Service Needs a Coordinated National Strategy
                     Initiatives          2005                        to Better Address an Estimated $30 Billion Tax Gap Due to Non-
                                                                      Filers

                                                      07/15/07        F-2, R-2, P-1. Consider a study to devise an effective outreach and
                                                                      education strategy.

 2006-40-007   Erroneous and Improper   November                      Efforts to Prevent Improper Tax Benefits Resulting from Multiple
                     Payments             2005                        Uses of Taxpayer Identification Numbers Can Be Improved

                                                      04/15/08        F-1, R-1, P-2. Lead a collaborative effort to identify a workable solution
                                                                      to resolve multiple identification number use cases where an
                                                                      identification number is used as a primary identification number on one
                                                                      return and a secondary identification number on another return.




                                                                 44
                       TIGTA Semiannual Report to Congress


                  IRS                                                      Report Title and Recommendation
                                                      Projected
Reference      Management                                                              Summary
                                        Issued       Completion
Number          Challenge                                              (F = Finding No., R = Recommendation No.,
                                                        Date
                  Area                                                               P = Plan No.)
 2006-40-024   Processing Returns and   December                       Individual Income Tax Returns Were Timely Processed in 2005;
               Implementing Tax Law       2005                         However, Implementation of Tax Law Changes Could Be Improved
               Changes During the Tax
                   Filing Season                       04/15/07        F-3, R-1, P-1. Implement a computer check that would identify
                                                                       questionable large-dollar entries for review and resolution for both paper
                                                                       and electronic individual income tax returns.
 2006-40-061     Providing Quality      March 2006                     The Taxpayer Assistance Center Closure Plan Was Based on
                 Taxpayer Service                                      Inaccurate Data
                    Operations
                                                       10/15/07        F-1, R-1, P-1. Ensure that data used in the Model or any decision-
                                                                       making tool are accurate and reliable and have been validated before
                                                                       using them to make decisions regarding the TAC Program.
                                                       10/15/07        F-1, R-2, P-1. Include in the Model or any decision-making tool data to
                                                                       identify customer characteristics and capture customer input to
                                                                       effectively measure the impact any results might have on taxpayer
                                                                       service and compliance.

 2006-10-066   Erroneous and Improper   March 2006                     The Office of Professional Responsibility Can Do More to Effectively
                     Payments                                          Identify and Act Against Incompetent and Disreputable Tax
                                                                       Practitioners

                                                       04/15/07        F-1, R-2, P-1. Develop a process to obtain relevant information on State
                                                                       disciplinary actions by coordinating with State licensing authorities.
                                                       09/15/07        F-1, R-3, P-1. Develop a method to identify representatives on the
                                                                       Centralized Authorization File that does not require representatives to
                                                                       use Social Security Numbers on Form 2848.
                                                       06/15/07        F-2, R-1, P-1. Implement recommendations from the prior audit. This
                                                                       should include employing the case management system to provide data
                                                                       on the use of program resources and performing an annual workload and
                                                                       staffing analysis to help prioritize and allocate resources.
 2006-50-077          Tax Gap           April 2006                     Some Concerns Remain About the Overall Confidence That Can Be
                                                                       Placed in Internal Revenue Service Tax Gap Projections

                                                       04/15/07        F-1, R-2, P-1. Establish a tax gap advisory panel that includes tax and
                                                                       economic experts to identify ways to better measure voluntary
                                                                       compliance.

 2006-20-111     Security of the IRS     July 2006                     Increased Managerial Attention Is Needed to Ensure Taxpayer
                                                                       Accounts Are Monitored to Detect Unauthorized Employee Accesses

                                                       06/15/07        F-1, R-3, P-1. Ensure that all business unit managers’ operational
                                                                       review requirements are updated to include a step to validate that all
                                                                       Online Reports Services system-related reports are certified timely and
                                                                       hold business unit managers accountable for meeting the security-related
                                                                       responsibilities.

 2006-40-109      Hurricane Relief       July 2006                     Taxpayers Residing in the Hurricane Katrina and Rita Disaster Areas
                                                                       Were Accurately Identified for Tax Relief

                                                       02/15/08        F-1, R-2, P-1. Identify accounts with manually input disaster indicators
                                                                       and update the accounts with the extended ending date.

 2006-20-108   Systems Modernization      August                       The Electronic Fraud Detection System Redesign Failure Resulted in
                     of the IRS            2006                        Fraudulent Returns and Refunds Not Being Identified

                                                       12/31/10        F-3, R-4, P-1. Defer additional work on the Web Electronic Fraud
                                                                       Detection System (EFDS) until the IRS decides who will perform the
                                                                       EFDS work.




                                                                  45
                    TIGTA Semiannual Report to Congress


                  IRS                                                 Report Title and Recommendation
                                                Projected
Reference      Management                                                         Summary
                                   Issued      Completion
Number          Challenge                                         (F = Finding No., R = Recommendation No.,
                                                  Date
                  Area                                                          P = Plan No.)
 2006-40-122   Providing Quality    August                        Customer Service at Taxpayer Assistance Centers Showed
               Taxpayer Service      2006                         Improvement During the 2006 Filing Season
                  Operations
                                                  05/15/07        F-2, R-1, P-2. Develop guidelines and provide training to Taxpayer
                                                                  Assistance Center managers and assistors on how to manage customer
                                                                  traffic and wait times.

 2006-10-124    Tax Exempt         September                      Resource and Computer Programming Limitations Have Hindered
                Organizations        2006                         the Progress of the Federal, State, and Local Governments Office in
                                                                  Identifying Its Customers

                                                  04/01/08        F-1, R-3, P-1. Revise computer programming to ensure that the code
                                                                  used to identify Federal Government agencies is not deleted if the Form
                                                                  941 filing requirements are removed from an agency’s account.
                                                  04/01/08        F-1, R-5, P-1. Submit a Request for Information Services to allow
                                                                  government entities with unique filing requirement codes, such as
                                                                  Puerto Rican, Virgin Islands, and American Samoa filers, to be coded as
                                                                  Federal, State, and local government office customers.

 2006-40-138   Providing Quality   September                      The Wage and Investment Division’s Automated Underreporter
               Taxpayer Service      2006                         Telephone Operations Could Improve Service to Taxpayers
                  Operations
                                                P-2: 11/15/07     F-2, R-1, P-2, P-3. Increase the number of bilingual Automated
                                                P-3: 04/15/08     Underreporter (AUR) Program assistors available to handle the demand
                                                                  from Spanish-speaking taxpayers; revise the AUR Program tax
                                                                  examiner position description to specifically include telephone duties;
                                                                  and adopt more precise scheduling and assignment practices.

 2006-30-132       Tax Gap         September                      Additional Enhancements Could Improve Tax Compliance of
                                     2006                         Employees Who Receive Tips

                                                  07/15/07        F-1, R-1, P-1. Ensure that adequate staffing remains available to
                                                                  monitor the tip agreements for all industries and use the results of
                                                                  monitoring to measure compliance.
                                                  07/15/07        F-2, R-1, P-1, P-2. Prepare a workforce plan to determine the necessary
                                                                  staffing levels needed to maximize the Tip Program to accomplish its
                                                                  goals.
                                                  07/15/07        F-3, R-1, P-1. Implement data verification procedures for the
                                                                  transcription of Forms 8027 and give priority to the identification of
                                                                  potential Form 941 non-filers over the identification of Form 8027 non-
                                                                  filers.
                                                  02/15/09        F-3, R-2, P-1. Ensure that the SWETRS program remains funded
                                                                  through completion and include the gaming tip agreements in the Tip
                                                                  Agreement database.
                                                  02/15/09        F-4, R-1, P-1. Ensure that the results of initial testing of the ATIP
                                                                  Revenue Procedure are analyzed, and consider developing similar
                                                                  Revenue Procedures for small businesses in other industries to increase
                                                                  the chance of improving tip income reporting compliance.
                                                  07/15/07        F-5, R-1, P-1. Establish an action plan to monitor progress of the Tip
                                                                  Program.

 2006-40-164   Providing Quality   September                      Individual Tax Returns Were Timely Processed in 2006, but
               Taxpayer Service      2006                         Opportunities Exist to Improve Verification of Certain Tax
                  Operations                                      Deductions

                                                  01/15/08        F-3, R-1, P-1. Create a new form for the tuition and fees deduction to
                                                                  ensure compliance with the tax legislation.




                                                             46
                     TIGTA Semiannual Report to Congress


                  IRS                                                     Report Title and Recommendation
                                                  Projected
Reference      Management                                                             Summary
                                     Issued      Completion
Number          Challenge                                             (F = Finding No., R = Recommendation No.,
                                                    Date
                  Area                                                              P = Plan No.)
 2006-20-166   Security of the IRS   September                        The Monitoring of Privacy Over Taxpayer Data Is Improving,
                                       2006                           Although Enhancements Can Be Made to Ensure Compliance with
                                                                      Privacy Requirements

                                                     10/15/07         F-1, R-1, P-1. Request that IRS business owners identify and report all
                                                     P-1, P-2:        systems or projects that collect personally identifiable information.
                                                                      F-1, R-2, P-1, P-2, P-3. Establish a centralized repository for all Privacy
                                                      10/15/07        Impact Assessment in a searchable, electronic format.
                                                   P-3: 02/15/08      F-2, R-1, P-1, P-2, P-3, P-4. Initiate a program providing for the routine
                                                   P-1: 10/15/07      evaluation of employee training activities relative to current privacy
                                                 P-2, P-3: 10/15/08   policy requirements and develop a system for tracking and monitoring
                                                   P-4: 10/15/07      these activities.
                                                      P-1, P-2:       F-2, R-2, P-1, P-2, P-3. Reinforce the importance of Privacy Impact
                                                      10/15/07        Assessment case documentation with specific instructions or case
                                                   P-3: 04/15/09      models and implement a compliance review process to assess whether
                                                                      IRS business units are adhering to privacy regulations, given limited
                                                                      resources and staff knowledge in conducting these reviews.

 2006-40-172   Security of the IRS   September                        Accountability over Volunteer Income Tax Assistance Program
                                       2006                           Computers Continues to Be a Problem

                                                   P-1: 06/01/07      F-1, R-2, P-1, P-2. Integrate the ITAMS and STARS to link the
                                                   P-2: 05/15/07      information between the two and ensure that all VITA Program
                                                                      computers are properly and efficiently controlled.

 2006-20-177   Security of the IRS   September                        Improvements Are Needed to Ensure that the Use of Modernization
                                       2006                           Applications Is Effectively Audited

                                                     10/15/07         F-1, R-1, P-1. Establish a review process for CADE audit trails.
                                                     07/15/07         F-1, R-2, P-1. Establish a viable retention policy for CADE audit trails,
                                                                      mirroring, where possible, that of other systems with taxpayer
                                                                      information.
                                                     04/15/07         F-2, R-1, P-1. Reassess the requirements for SAAS audit trails,
                                                                      including identifying all user requirements and the resulting SAAS
                                                                      system requirements needed to achieve them.
                                                     10/15/08         F-2, R-2, P-1. Modify modernized system audit trails to comply with
                                                                      SAAS standards, ensuring that data collected are valid and arranged in
                                                                      the proper format.
                                                     04/15/08         F-2, R-3, P-1. Re-evaluate SAAS procedures and processes to ensure
                                                                      that the new SAAS requirements are incorporated and that
                                                                      responsibilities for reviewing modernization audit trails are adequately
                                                                      defined.
 2006-20-178   Security of the IRS   September                        Complete Certification and Accreditation Is Needed to Ensure that the
                                       2006                           Electronic Fraud Detection System Meets Federal Government
                                                                      Security Standards

                                                     01/15/08         F-3, R-1, P-1. Develop a Business Impact Analysis for the Enterprise
                                                                      Computing Center – Memphis that places the EFDS at an appropriate
                                                                      priority among the other major applications residing at the Enterprise
                                                                      Computing Center – Memphis.




                                                                 47
                   TIGTA Semiannual Report to Congress


                              Other Statistical Reports
              The Inspector General Act of 1978 requires Inspectors General
                             to address the following issues:
                          Issue                                                Result for TIGTA
Access to Information                                           As of March 30, 2007, there were no instances in
Report unreasonable refusals of information available to        which information or assistance requested by the
the agency that relate to programs and operations for           Office of Audit was refused.
which the Inspector General has responsibilities.
Disputed Audit Recommendations                                  As of March 30, 2007, no reports were issued in
Provide information on significant management decisions in      which significant recommendations were disputed.
response to audit recommendations with which the Inspector
General disagrees.
Revised Management Decisions                                    As of March 30, 2007, no significant
Provide a description and explanation of the reasons for        management decisions were revised.
any significant revised management decisions made
during the reporting period.
Audit Reports Issued in the Prior Reporting Period              As of March 30, 2007, there were no prior reports
With No Management Response                                     where management’s response was not received.
Provide a summary of each audit report issued before the
beginning of the current reporting period for which no
management response has been received by the end of the
current reporting period.

Review of Legislation and Regulations                           TIGTA’s Office of Chief Counsel reviewed 142
Review existing and proposed legislation and regulations,       proposed regulations and legislative requests
and make recommendations concerning the impact of               during this reporting period.
such legislation or regulations.




                                                           48
                     TIGTA Semiannual Report to Congress



                                  Appendix II
                                 Audit Products

                      October 1, 2006 – March 31, 2007

                             Inspector General Congressional Testimony
Reference Number                                     Hearing Title
               February 2007
                     Inspector General Testimony Before U.S. House of Representatives Committee on Budget - IRS and the
  2007-OT-054
                     Tax Gap
                 March 2007
                     Inspector General Testimony Before Committee on Ways and Means’ Subcommittee on Oversight -
  2007-OT-067
                     2007 Filing Season


                                                 Audit Products
Reference Number                                      Report Title
               October 2006
                    Stronger Management Oversight Is Required to Ensure That Valuable Systems Modernization Expertise Is
   2007-20-002
                    Received from the Federally Funded Research and Development Center Contractor
                    The Internal Revenue Service Is Successfully Taking Steps to Transition Modernization Activities from
   2007-20-003
                    the PRIME Contractor; However, Difficult Challenges Remain
                    The Modernization and Information Technology Services Organization’s Revised Post Implementation
   2007-20-001      Review Procedure Can Be Improved (Inefficient Use of Resources: Eliminating the requirement to
                    perform Post Milestone Reviews will provide over $1 million in efficiency gains)
   2007-50-004      Analysis of the Internal Revenue Service’s Fiscal Year 2007 Budget Legislative Proposals
                 November 2006
                    No audit reports issued
                 December 2006
                    Most Compliance Actions Were Prevented; However, Some Letters Were Sent Inappropriately to
   2007-30-006      Taxpayers Affected by Hurricanes Katrina and Rita (Taxpayer Burden: 230 instances of inappropriate
                    compliance actions)
   2007-1C-008      Report on Audit of Direct and Indirect Costs for Contractor’s Fiscal Year 2004 (Company 6)
   2007-1C-009      Audit of Labor Accounting System Internal Controls
                    Report on Audit of Cost Accounting Standard 418, Allocation of Direct and Indirect Costs
   2007-1C-010
                    Noncompliance
   2007-1C-011      Report on Audit of Cost Accounting Standard 404, Capitalization of Tangible Assets
   2007-1C-012      Report on Labor Cost Charging and Allocation
                    The Modernized e-File Project Can Improve the Management of Expected Capabilities and Associated
   2007-20-005
                    Costs
   2007-1C-013      Report on Audit of Contractor’s Fiscal Year 2004 Incurred Costs (Questioned Costs: $17,083)
   2007-1C-014      Report on Cumulative Allowable Cost Worksheet for Fiscal Year Ended June 30, 2004




                                                              49
                     TIGTA Semiannual Report to Congress



                                                 Audit Products
Reference Number                                      Report Title
              January 2007
  2007-1C-015       Report on Audit of Fiscal Year 2007 Forward Pricing Indirect Rates and Out Years
  2007-1C-016       Audit of Purchasing System Internal Controls
                    Invoice Audit of the Management of Seized and Forfeited Assets Contract – TIRNO-05-C-00010
  2007-10-025
                    (Questioned costs: $21,298)
  2007-1C-017       Report on Audit of Incurred Cost for Fiscal Year Ending September 30, 2003
  2007-1C-018       Report on Audit of Fiscal Year 2007 Forward Pricing Rates
  2007-1C-019       Report on Contractor’s Fiscal Year 2006 Labor Floor Checks
  2007-1C-020       Report on Audit of the Contractor’s Fiscal Year 2006 Revised Provisional Rates
  2007-1C-021       Incurred Costs Audit for Fiscal Year Ended June 30, 2004
  2007-1C-022       Incurred Costs Audit for Fiscal Years 2000 through 2003
                    Business Cases for Information Technology Projects Remain Inaccurate (Reliability of Information: $3.52
  2007-20-024       billion due to inaccurate reporting of project costs, inaccurate measuring of progress on development
                    projects, and inconsistent reporting of total costs)
                    The Internal Revenue Service Adequately Protected Sensitive Data and Restored Computer Operations
  2007-20-023
                    After the Flooding of Its Headquarters Building
                    Improvements to the E-Help Desk Are Needed to Support Expanding Electronic Products and Services
  2007-40-026       (Taxpayer Burden: 16,101 tax professionals who received incorrect answers; Reliability of Information:
                    28,178 E-cases with inadequate documentation to assess the accuracy of responses provided to customers)
                    The National Research Program Study of S Corporations Has Been Effectively Implemented, but
  2007-30-027       Unnecessary Information Was Requested From Taxpayers (Taxpayer Burden: 35 requests for information
                    from taxpayers that contained unnecessary items or were vague.)
                 February 2007
                    Attestation Review of the Internal Revenue Service’s Fiscal Year 2006 Annual Accounting of Drug
  2007-10-046
                    Control Funds
  2007-30-028       The Internal Revenue Service Building Flood Caused No Measurable Impact on Tax Administration
  2007-40-029       The Internal Revenue Service Provides Valuable Assistance in Locating Missing Children
  2007-1C-034       Detailed Financial Condition Risk Assessment
  2007-1C-038       Report on the Audit of the Contractor’s Estimating System and Internal Controls
  2007-1C-039       Report on the Audit of the Adequacy and Compliance of the Contractor’s Cost Accounting Change
                    Voucher Audit of the Information Processing Support Services Contract – TIRNO-00-D-00009
  2007-10-050
                    (Questioned costs: $3.4 million)
                    Report on the Audit of Adequacy and Compliance of the Contractor’s Home Office Disclosure Statement
  2007-1C-031
                    Revision 5, Part VIII
                    Report on Audit of Noncompliance with Cost Accounting Standard 408, Accounting for Costs of
  2007-1C-032
                    Compensated Personal Absence
                    Report on the Audit of the Adequacy and Compliance of the Contractor’s Systems and Services Division
  2007-1C-033
                    Disclosure Statement Revision 16, Parts I – VII
  2007-1C-035       Report on Audit of the Contractor’s Compensation System
  2007-1C-036       Incurred Costs Audit for Fiscal Year Ending September 30, 2002
                    Report on Audits of Cost Accounting Standard 412, Composition and Measurement of Pension Costs, and
  2007-1C-037
                    Cost Accounting Standard 413, Adjustment and Allocation of Pension Costs
                 March 2007
   2007-20-030      Telecommunication Projects Need Improved Contract Documentation and Management Oversight
                    The Internal Revenue Service Needs to Improve Procedures to Identify Noncompliance with the
   2007-30-049      Reporting Requirements for Noncash Charitable Contributions




                                                              50
                   TIGTA Semiannual Report to Congress



                                                Audit Products
Reference Number                                      Report Title
                   Report on Compliance with Requirements Applicable to Major Programs and on Internal Control Over
   2007-1C-040     Compliance in Accordance with the Office of Management and Budget Circular A-133,
                   Fiscal Year 2005 (Questioned Costs: $103,560)
   2007-1C-041     Incurred Cost Audit for Fiscal Year 2003 (Questioned Costs: $2,246,867)
   2007-1C-042     Report on Accounting System Audit
   2007-1C-043     Report on the Contractor’s Information Technology System General Internal Control Follow-up
                   Report on Audit of the Contractor’s Compliance with Cost Accounting Standard 420, Accounting for
   2007-1C-045
                   Independent Research and Development Costs and Bid and Proposal Costs
                   The Correspondence Imaging System Helps to Manage Taxpayer Correspondence, but There Are Delays
   2007-40-047
                   in the Scanning Process
                   The Process to Separate Joint Tax Accounts for Innocent Spouse Cases Has Been Improved; However,
   2007-40-053     Additional Actions Are Needed (Revenue Protection: $20,834; Taxpayer Rights and Entitlements:
                   Refunds to 691 taxpayers not released due to input of improper codes.)
                   Supplement to Report on Audit of the Contractor’s Fiscal Year 2003 Incurred Costs (Questioned Costs:
   2007-1C-044
                   $22,099)
                   A Statistical Portrayal of Federally Recognized Indian Tribal Governments’ Tax Filing Characteristics for
   2007-10-007
                   Tax Years 2000 Through 2004
                   Fiscal Year 2007 Statutory Review of Compliance with Lien Due Process Procedures (Taxpayer Rights
   2007-30-051     and Entitlements: 15,847 lien notices untimely mailed and proof of mailing not located; 60 cases not
                   researched for different addresses.)
                   Fiscal Year 2007 Statutory Audit of Compliance with Legal Guidelines Restricting the Use of Records of
   2007-40-055
                   Tax Enforcement Results
                   The Internal Revenue Service Is Not Adequately Protecting Taxpayer Data on Laptop Computers and
   2007-20-048     Other Portable Electronic Media Devices (Taxpayer Privacy and Security: 480 individuals whose loss of
                   sensitive data could have been prevented.)
                   Steps Can Be Taken to Reduce the Challenges Taxpayers with Vision Impairments Face When
   2007-40-057
                   Attempting to Meet Their Tax Obligations
                   Centralized Sites Effectively Evaluated Offers in Compromise from Self-Employed Taxpayers and
   2007-30-058
                   Assisted in Reducing Overall Staffing
   2007-30-056     Trends in Compliance Activities Through Fiscal Year 2006
                   The Private Debt Collection Program Was Effectively Developed and Implemented, but Some
   2007-30-066
                   Follow-up Actions Are Still Necessary
                   The Background Investigations Process Needs Improvements to Ensure That Investigations Are
   2007-20-059
                   Completed Timely and Effectively
   2007-20-060     Sensitive Data Remain at Risk From the Use of Unauthorized Wireless Technology
                   Oversight of the Electronic Fraud Detection System Restoration Activities Has Improved, but Risks
   2007-20-052     Remain (Inefficient Use of Resources: $1.7 million paid to contractors that could have been avoided if the
                   system was timely implemented.)
                   Tax-Exempt Hospital Industry Compliance With Community Benefit and Compensation Practices Is
   2007-10-061
                   Being Studied, but Further Analyses Are Needed to Address Any Noncompliance
                   Social Security and Medicare Taxes Are Not Being Properly Assessed on Some Tips and Certain Types of
   2007-30-062     Wage Income (Increased Revenue: $541 million impacting 456,688 taxpayers; Taxpayer Burden, 377,850
                   taxpayers burdened by lack of written instructions.)




                                                             51
                      TIGTA Semiannual Report to Congress




                      Appendix III
                   TIGTA’s Statutory
                Reporting Requirements
TIGTA issued 11 audit reports required by statute dealing with the adequacy and security of IRS
technology during this reporting period. In FY 2007, TIGTA is currently working on the ninth round of
statutory reviews that are required annually by the Internal Revenue Service Restructuring and Reform
Act of 1998 (RRA 98). TIGTA is also working on the annual review requirement of the Federal
Financial Management Improvement Act of 1996 (FFMIA). The following table reflects the status of
the FY 2007 statutory reviews.


        Reference to                Explanation of the
                                                                            Comments/TIGTA Audit Status
     Statutory Coverage                 Provision

Enforcement Statistics           Requires TIGTA to evaluate      Reference No. 2007-40-055, March 20, 2007
                                 the IRS’ compliance with        IRS first-line managers had appropriately not used records
Internal Revenue Code (I.R.C.)   restrictions under section      of tax enforcement results, or production quotas or goals,
§ 7803(d)(1)(A)(i)               1204 of RRA 98 on the use       when evaluating employees and considered the fair and
                                 of enforcement statistics to    equitable treatment of taxpayers a performance
                                 evaluate IRS employees.         requirement. First-line managers also appropriately
                                                                 certified that they had not used records of tax enforcement
                                                                 results in a prohibited manner. TIGTA believes that the
                                                                 IRS’ efforts to ensure that managers are not using records
                                                                 of tax enforcement results, or production goals or quotas, to
                                                                 evaluate employees are generally effective and are helping
                                                                 to protect the rights of taxpayers.


Restrictions on Directly         Requires TIGTA to evaluate      Audit fieldwork in progress.
Contacting Taxpayers             the IRS’ compliance with
                                 restrictions under I.R.C.
I.R.C.                           § 7521 on directly contacting
§ 7803(d)(1)(A)(ii)              taxpayers who have indicated
                                 they prefer their
                                 representatives be contacted.




                                                             53
                        TIGTA Semiannual Report to Congress



        Reference to               Explanation of the
                                                                               Comments/TIGTA Audit Status
     Statutory Coverage                Provision

Filing of a Notice of Lien      Requires TIGTA to evaluate       Reference No. 2007-30-051, March 20, 2007
                                the IRS’ compliance with         The IRS did not comply with the law in all cases. TIGTA’s
I.R.C.                          required procedures under        review of a statistically valid sample of 150 Federal Tax
§ 7803(d)(1)(A)(iii)            I.R.C. § 6320 upon the filing    Lien cases identified 142 cases (95 percent) for which the
                                of a notice of lien.             IRS did mail lien notices timely and correctly, as required
                                                                 by I.R.C. § 6320 and internal procedures. Four lien notices
                                                                 (about 3 percent) were not sent timely; for another four lien
                                                                 notices (about 3 percent), TIGTA could not determine if the
                                                                 IRS complied with the law, because the IRS could not
                                                                 provide proof of mailing. When an initial lien notice is
                                                                 returned because it could not be delivered and a different
                                                                 address is available for the taxpayer, the IRS is not always
                                                                 meeting its statutory requirement to send the lien notice to
                                                                 the taxpayer’s last known address. For 60 (15 percent) of
                                                                 the 400 cases, the IRS did not research its computer
                                                                 systems for the taxpayer’s last known address. These cases
                                                                 could involve legal violations.

                                                                 Also, the IRS did not always follow its own internal guidelines
                                                                 for notifying taxpayer representatives of the filing of lien
                                                                 notices. For 15 (60 percent) of the 25 cases in which the
                                                                 taxpayer had a representative at the time of the IRS lien
                                                                 actions, the IRS did not notify the taxpayer’s representative of
                                                                 the lien filing.

Extensions of the Statute of    Requires TIGTA to include            Audit fieldwork in progress.
Limitations for Assessment of   information regarding
Tax                             extensions of the statute of
                                limitations for assessment
I.R.C.                          of tax under I.R.C. § 6501,
§ 7803(d)(1)(C)                 and the provision of notice
                                to taxpayers regarding the
I.R.C.                          right to refuse or limit the
§ 6501(c)(4)(B)                 extension to particular
                                issues or a particular period
                                of time.


Levies                          Requires TIGTA to evaluate       Audit in report writing phase.
                                the IRS’ compliance with
I.R.C.                          required procedures under
§ 7803(d)(1)(A)(iv)             I.R.C. § 6330 regarding
                                levies.

Collection Due Process          Requires TIGTA to evaluate       Audit fieldwork in progress.
                                the IRS’ compliance with
I.R.C.                          required procedures under
§ 7803(d)(1)(A)(iii) and (iv)   I.R.C. §§ 6320 and 6330
                                regarding taxpayers’ rights to
                                appeal lien or levy actions.




                                                                54
                      TIGTA Semiannual Report to Congress



        Reference to                  Explanation of the
                                                                                 Comments/TIGTA Audit Status
     Statutory Coverage                   Provision

Seizures                           Requires TIGTA to evaluate         Audit in report writing phase.
                                   the IRS’ compliance with
I.R.C.                             required procedures under
§ 7803(d)(1)(A)(iv)                I.R.C. §§ 6330 through 6344
                                   when conducting seizures.


Taxpayer Designations – Illegal    An evaluation of IRS’              Audit fieldwork in progress.
Tax Protester Designation and      compliance with restrictions
Nonfiler Designation               under section 3707 of
                                   RRA 98 on designation of
I.R.C.                             taxpayers.
§ 7803(d)(1)(A)(v)


Disclosure of Collection           Requires TIGTA to review           Audit fieldwork in progress.
Activities With Respect to         and certify whether the IRS is
Joint Returns                      complying with I.R.C.
                                   § 6103(e)(8) to disclose
I.R.C.                             information to an individual
§ 7803(d)(1)(B)                    filing a joint return on
                                   collection activity involving
I.R.C.                             the other individual filing the
§ 6103(e)(8)                       return.


Taxpayer Complaints                Requires TIGTA to include          Statistical results on the number of taxpayer
                                   in each of its Semiannual          complaints received are shown on page 39.
I.R.C.                             Reports to Congress the
§ 7803(d)(2)(A)                    number of taxpayer
                                   complaints received and the
                                   number of employee
                                   misconduct and taxpayer
                                   abuse allegations received by
                                   the IRS or TIGTA from
                                   taxpayers, IRS employees,
                                   and other sources.


Administrative or Civil Actions    Requires TIGTA to include          Audit in planning phase.
With Respect to the Fair Tax       information regarding any
Collection Practices Act of 1996   administrative or civil actions
                                   with respect to violations of
I.R.C.                             the fair debt collection
§ 7803(d)(1)(G)                    provision of I.R.C. § 6304,
                                   including a summary of such
I.R.C.                             actions, and any resulting
§ 6304                             judgments or awards granted.
Section 3466 of RRA 98




                                                                     55
                         TIGTA Semiannual Report to Congress



        Reference to              Explanation of the
                                                                            Comments/TIGTA Audit Status
     Statutory Coverage               Provision

Denial of Requests for         Requires TIGTA to include         Audit fieldwork in progress.
Information                    information regarding
                               improper denial of requests
I.R.C.                         for information from the IRS,
§ 7803(d)(1)(F)                based on a statistically valid
                               sample of the total number of
I.R.C.                         determinations made by the
§ 7803(d)(3)(A)                IRS to deny written requests
                               to disclose information to
                               taxpayers on the basis of
                               I.R.C. § 6103 or 5 U.S.C.
                               § 552(b)(7).

Adequacy and Security of the   Requires TIGTA to evaluate        Information Technology Reviews:
Technology of the IRS          the IRS’ adequacy and             Reference Number 2007-20-001, October 2006
                               security of its technology.       Reference Number 2007-20-002, October 2006
I.R.C.                                                           Reference Number 2007-20-003, October 2006
§ 7803(d)(1)(D)                                                  Reference Number 2007-20-005, December 2006
                                                                 Reference Number 2007-20-024, January 2007
                                                                 Reference Number 2007-20-030, March 2007
                                                                 Reference Number 2007-20-052, March 2007

                                                                 Security Reviews:
                                                                 Reference Number 2007-20-023, January 2007
                                                                 Reference Number 2007-20-048, March 2007
                                                                 Reference Number 2007-20-059, March 2007
                                                                 Reference Number 2007-20-060, March 2007


Federal Financial Management   Requires TIGTA to evaluate        Audit in report writing phase.
Improvement Act of 1996        the IRS’ financial
                               management systems to
31 U.S.C. § 3512               ensure compliance with
                               Federal requirements, or
                               establishment of a
                               remediation plan with
                               resources, remedies, and
                               intermediate target dates to
                               bring the IRS into substantial
                               compliance.




                                                                56
                      TIGTA Semiannual Report to Congress




                     Appendix IV
               Section 1203 Standards
In general, the Commissioner of Internal Revenue           •   Violating the Internal Revenue Code of 1986,
shall terminate the employment of any IRS                      Treasury regulations, or policies of the IRS
employee if there is a final administrative or judicial        (including the Internal Revenue Manual) for the
determination that, in the performance of official             purpose of retaliating against, or harassing a
duties, such employee committed any misconduct                 taxpayer, taxpayer representative, or other
violations outlined below. Such termination shall be           employee of the IRS;
a removal for cause on charges of misconduct.
                                                           •   Willfully misusing provisions of Section 6103
Misconduct violations include:                                 of the Internal Revenue Code of 1986 for the
                                                               purpose of concealing information from a
•   Willfully failing to obtain the required approval          congressional inquiry;
    signatures on documents authorizing the seizure
    of a taxpayer’s home, personal belongings, or          •   Willfully failing to file any return of tax required
    business assets;                                           under the Internal Revenue Code of 1986 on or
                                                               before the date prescribed therefore (including
•   Providing a false statement under oath with                any extensions), unless such failure is due to
    respect to a material matter involving a taxpayer          reasonable cause and not to willful neglect;
    or taxpayer representative;
                                                           •   Willfully understating Federal tax liability,
•   Violating, with respect to a taxpayer, taxpayer            unless such understatement is due to reasonable
    representative, or other employee of the IRS,              cause and not to willful neglect; and
    any right under the Constitution of the United
    States, or any civil right established under Title     •   Threatening to audit a taxpayer for the purpose
    VI or VII of the Civil Rights Act of 1964; Title           of extracting personal gain or benefit.
    IX of the Education Amendments of 1972; Age
                                                           The Commissioner of Internal Revenue may
    Discrimination in Employment Act of 1967;
                                                           mitigate the penalty of removal for the
    Age Discrimination Act of 1975; Section 501 or
                                                           misconduct violations outlined above. The
    504 of the Rehabilitation Act of 1973; or Title I
                                                           exercise of this authority shall be at the sole
    of the Americans with Disabilities Act of 1990;
                                                           discretion of the Commissioner and may not be
•   Falsifying or destroying documents to                  delegated to any other officer. The
    conceal mistakes made by any employee                  Commissioner, in his/her sole discretion, may
    with respect to a matter involving a taxpayer          establish a procedure that will be used to
    or taxpayer representative;                            determine whether an individual should be
•   Committing assault or battery on a taxpayer,           referred to the Commissioner for determination.
    taxpayer representative, or other employee of          Any mitigation determination by the
    the IRS, but only if there is a criminal               Commissioner in these matters may not be
    conviction or a final judgment by a court in a         appealed in any administrative or judicial
    civil case, with respect to the assault or             proceeding.
    battery;




                                                          57
                  TIGTA Semiannual Report to Congress




                    Appendix V
               Data Tables Provided
                    by the IRS
The memorandum copied below is the IRS transmittal to TIGTA. The tables that follow the
memorandum contain information as provided by the IRS to TIGTA and consist of IRS employee
misconduct reports from the IRS Automated Labor and Employee Relations Tracking System
(ALERTS) for the period from October 1, 2006, through March 31, 2007. Also, data concerning
substantiated I.R.C. § 1203 allegations for the same period are included. IRS management
conducted inquiries into the cases reflected in these tables.




                                               59
                          TIGTA Semiannual Report to Congress



                 Report of Employee Misconduct for the Period
                  October 01, 2006 through March 31, 2007
                        Summary by Disposition Groups
                          (Table provided by the IRS)

                                                                         Employee
                                 TIGTA            Administrative                          Background
      Disposition                                                       Tax Matter                             Total
                              Investigations         Cases                               Investigations
                                                                          Cases

 Removal                                    67                     91              31                    2          191
 Separation of
 Probationary Employees                       3                    58                                   28              89
 Separation of Temporary
 Employees                                                         30               6                    7              43
 Resignation/Retirement                     94                   145               50                   18          307
 Suspensions                                97                   240               62                    4          403
 Reprimands                                 93                   466              430                   21       1,010
 Counseling                                                      340              220                   68          628
 Alternative Discipline                     20                   103               16                    4          143
 Clearance                                 106                   135               11                    1          253
 Closed Without Action                     172                   278              122                 123           695
 Closed Without Action
 (Caution Statement)                       120                   106               82                   74          382
 Forwarded to TIGTA                                                22                                                   22
 Suspended – Waiting
 Supplemental                                 3                                                                          3
 Termination for
 Abandonment of
 Position                                                          19                                                   19
 Case Suspended Pending
 Employee Return To
 Duty                                         5                     3               4                                   12
 Prosecution Pending for
 TIGTA ROI’s                                17                                                                          17

 Total                                     797                 2,036           1,034                  350        4, 217

Source: Automated Labor and Employee Relations Tracking System (ALERTS)
This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01,
January 14, 1999 Extract Date: Monday, April 02, 2007 Report ID = T1R3a




                                                              60
                           TIGTA Semiannual Report to Congress



                     Report of Employee Misconduct for the Period
                      October 01, 2006 through March 31, 2007
                                  National Summary
                              (Table provided by the IRS)


                                                                                       Cases Closed
                                                 Conduct
                           Opening                                                                                               Closing
     Case Type                                    Cases                                                        Non-
                          Inventory                                   Conduct                                                   Inventory
                                                 Received                                Duplicates           Conduct
                                                                       Issues
                                                                                                               Cases

    TIGTA
    Investigations
    ROI1                               582                  838              (797)                    (3)               (0)                620
    Administrative
    Case2                              806                2,150            (2,036)                  (19)                (4)                897
    Employee Tax
    Compliance
    Case3                              615                1,896            (1,034)                  (39)                (0)              1,438
    Background
    Investigations4                    137                  293              (350)                    (0)               (0)                  80

    Total                           2,140                5,177            (4,217)                   (61)                (4)              3,035

Source: Automated Labor and Employee Relations Tracking System (ALERTS)

This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01,
January 14, 1999

Extract Date: Monday, April 02, 2007                 Report ID = T1R1




1
  TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an investigation into alleged misconduct and referred
a Report of Investigation (ROI) to IRS for appropriate action.
2
  Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3
  Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance program which becomes a matter of
official interest.
4
  Background Investigation - Any matter involving an NBIC investigation into an employee’s background that is referred to management for
appropriate action.




                                                                        61
                                   TIGTA Semiannual Report to Congress



                   Summary of Substantiated I.R.C. § 1203 Allegations
                          Recorded in ALERTS for the Period
                      October 01, 2006 through March 31, 2007
                              (Table provided by the IRS)


                                                                                        Removed                                  In
     § 1203                                     Resigned/           Probation                               Penalty
                            Removals1                                                   On Other                              Personnel       Total
    Violation                                    Retired           Separation                              Mitigated1
                                                                                        Grounds                                Process

 Seizure Without
 Approval                                 0                   0                   0                  0                    0               0       0
 False Statement
 Under Oath                               0                   0                   0                  0                    0               1       1
 Constitutional &
 Civil Rights
 Issues                                   0                   0                   0                  0                    0               0       0
 Falsifying or
 Destroying
 Records                                  0                   2                   0                  0                    0               0       2
 Assault or
 Battery                                  1                   0                   0                  0                    0               0       1
 Retaliate or
 Harass                                   0                   1                   0                  0                    0               0       1
 Misuse of §6103
                                          0                   0                   0                  0                    0               0       0
 Failure to File
 Federal Tax
 Return                                  22                   9                   0                  8                   40           27        106
 Understatement
 of Federal Tax
 Liability                               28                 15                    0                  3                   29           48        123
 Threat to Audit
 for Personal
 Gain                                     0                   0                   0                  0                    0               1       1

 Totals                                 51                  27                   0                 11                    69          77         235
Source: Automated Labor and Employee Relations Tracking System (ALERTS) and § 1203 Review Board records.
Extract Date: Wednesday, April 04, 2007




    1
        The cases reported as “Removals” and “Penalty Mitigated” do not reflect the results of any third-party appeal.




                                                                                  62
